                    :luation


                        ort




              DOD IMPLEMENTATION OF THE
      NATIONAL PRACTITIONER DATA BANK GUIDELINES


Report Number 98- 168                           June 26, 1998




              Office of the Inspector General
                  Department of Defense
Additional   Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DoD, Home Page at: WWW.DODIG.OSD.MIL.
Suggestions for F’uture Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                      OAIG-AUD (ATI’N: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; b sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing the De fyense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

AFIP                  Armed Forces Institute of Pathology
ASD(HA)               Assistant Secretary of Defense (Health Affairs)
BUMED                 Bureau of Medicine and Surgery
CCQAS                 Centralized Credentials Quality Assurance System
DHHS                  Department of Health and Human Services
DPDB                  Defense Practitioner Data Bank
JAG                   Judge Advocate General
                      Military Treatment Facility
NPDB                  National Practitioner Data Bank
QPRAC                 Query for Practitioners
                            INSPECTOR    GENERAL
                           DEPARTMENT    Of DEFENSE
                             400 ARMY NAVY DRIVE
                           ARLINGTON. VIRGINIA 22202




                                                                          June 26, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE
                 (HEALTH AFFAIRS)
               ASSISTANT SECRETARY OF THE NAVY
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND ;;F?XXL;R)
               AUDITOR GENERAL, DEPARTMENT

SUBJECT: Evaluation Report on DOD Implementation of the National Practitioner
         Data Bank Guidelines (Report No. 98-168)


      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments, we revised Recommendation A.2.a. We request
that the Assistant Secretary of Defense (Health Affairs) reconsider her position on
Recommendations A. 1.a.(2), A. 1.b.( l), and A. 1.b.(2). In addition, we request that
the Arm and the Navy provide implementation plans and dates for Recommendations
C. 1. an B C.2. Management should provide comments by August 26, 1998.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. Michael A. Joseph at (757) 766-9108 (email
mjoseph@dodig.osd.mil), or Ms. Betsy Brilliant at (703) 604-8875 (DSN 664-8875)
(email bbrilliant@dodig.osd.mil).   See Appendix H for the report distribution. The
evaluation team members are listed on the inside back cover.




                                   Robert f Lieberman
                                Assistant Inspector General
                                        for Auditing
                          Office of the Inspector   General,   DOD
 Report No. 98-168                                                       June 26, 1998
  (Project No. 7LH4009)



                           DOD Implementation of the
                   National Practitioner Data Bank Guidelines

                                  Executive Summary

Introduction.   This evaluation was requested by the Assistant Secretary of Defense
(Health Affairs) (ASD[HA]). The National Practitioner Data Bank (NPDB) is a
Federal database that collects and releases information relating to the professional
competence and conduct of physicians, dentists, and other healthcare practitioners and
providers. It is intended to improve the quality of healthcare b restricting the ability
of incompetent healthcare practitioners and providers to move rrom State to State
without disclosure or discovery of their previous damaging or incompetent
peIfOMWlCe.


Evaluation Objectives. The primary evaluation objective was to determine the
Military Departments’ overall effectiveness in implementing the NPDB program
guidelines. In addition, we assessed the DOD programs, policies, procedures, and
practices for identifying, processing, and reporting to the NPDB those healthcare
practitioners and providers associated with malpractice payments or subjected to
adverse privileging actions. We reviewed the management control program as it
applied to the implementation of NPDB guidelines in DOD.

Evaluation Results. DOD has made progress in implementing the NPDB guidelines.
Initiatives by all three Military Departments resulted in improvements in the processing
time for reporting adverse privileging actions. In addition, the communication between
the Air Force medical and legal communities is commendable. However,
improvements were still needed in reporting malpractice payments and adverse
privileging actions to the NPDB, and in reporting to the Defense Practitioner Data
Bank (DPDB).

        o Although DOD reporting of malpractice payments to the NPDB needs
improvement, it conforms to DOD policy, which mandates only partial reporting. Of
the 124 malpractice payment records reviewed, 87 (70 percent) had not been reported
to the NPDB. In addition, those reported had not been submitted in a timely manner.
As a result, the NPDB had incomplete and untimely information and, when the NPDB
was queried, healthcare entities did not have all relevant information available for
making credentialing and privileging decisions (Finding A).

        o Although the Military Departments were reporting physicians and dentists,
the specific adverse privileging actions reported varied widely. In addition, the
Military Departments did not report the actions taken in a timely manner. As a result,
healthcare entities querying the NPDB did not have all relevant information available
when making credentialing or privileging decisions (Finding B).
        o The DPDB did not contain records that had been reported to the NPDB. Of
1,150 malpractice pa ments in our sample database, 88 (8 percent) were found only in
the NPDB, and 90 o r the 220 (41 percent) adverse privileging actions in the sample
database were found on1 in the NPDB. When reports were sent to both data banks,
key information was dif rerent. As a result, there was no complete, accurate, automated
database within DoD for conducting clinical and malpractice analyses (Finding C).
See Appendix A for details on the management control program.

Summary of Recommendations. We recommend that the ASDQ-IA) enter into a
memorandum of understanding with the Department of Justice to obtain more timely
and complete information on malpractice payments and to reconcile outstanding clarms
on a quarterly basis. In addition, we recommend that the ASD(HA) revise the policy
regarding NPDB reporting on malpractice payments and adverse privileging actions.
We recommend the Military Departments’ Surgeons General identify the information
needed from the Department of Justice and the Military Departments’ Judge Advocates
General. We further recommend that the Surgeons General reconcile the DPDB and
the NPDB and implement procedures to ensure that reports are submitted to the DPDB
concurrent with NPDB reporting.

Management Comments. The ASD(HA) concurred with the recommendation to enter
into a memorandum of understanding with the Department of Justice. The Assistant
Secretary stated that the memorandum of understanding will specify the type of
malpractice information the Military Departments require to efficiently process paid
malpractice claims. The ASD(HA) nonconcurred with the recommendation to change
DOD policy to report all mal ractice payments or to repor&those payments within
30 days of notification. To Pacilitate NPDB reporting, the ASD(HA) has implemented
policy whereby all paid [malpractice] cases determined to meet the standard of care or
are attributable to a systems problem will be peer reviewed by an external civilian
agency. The ASD(HA) stated that the DOD reporting policy was established in an effort
to level the playing field between DOD healthcare practitioners and practitioners in the
civilian community. Further, the civilian community protects healthcare ractitioners
by using a “corporate shield” whereby the practitioner’s name is deleted Prom the claim
and instead the claim is filed against the corporation. Finally, the ASD(HA) stated that
120 days rather than 30 days is necessary to allow adequate time to report malpractice
payments. The ASD(HA) concurred with the recommendations for status reporting by
the Surgeons General, NPDB reporting in its management control plan, and revising
adverse privileging actions reporting policy. The Assistant Secretary stated that the
DoD Risk Management Committee will be responsible for monitoring and tracking
NPDB reporting.

The Military Departments concurred with all the recommendations except the
recommendations to report all malpractice payments within 30 days. The Army stated
that the small number of reports submitted was related to administrative problems, not
current policy. The Navy and the Air Force stated that reporting the involved
practitioners when the standard of care was not met complies with NPDB policy of
reporting malpractice payments made on behalf of a practitioner. The Military
Departments also requested that the malpractice payments reporting deadline be
extended to 90 to 120 days. The Navy and the Air Force partially concurred with the
recommendation on reporting payment information by the Judge Advocates General to
the Surgeons General; but requested that the deadline be extended to 45 days. Further,



                                           ii
the Air Force agreed to reconcile data differences between the NPDB and the DPDB by
hiring a full-time database manager to be responsible for malpractice and adverse action
databases. See Part I for a discussion of management comments and Part III for the
complete text of those comments.

Evaluation Response. Comments from the ASD(HA), the Army, the Navy, and the
Air Force were partially responsive. We recognize the ASD(HA) and Military
Departments* position that DOD should report only malpractice payments made on
behalf of the practitioner. However, we believe that implementation of our
recommendatton to report all malpractice payments is necessary to bring DOD into
compliance with the intent of the public law. In addition, the original memorandum of
understanding between DoD and the Department of Health and Human Services stated
that DOD would report all malpractice payments. We see no need to revise the
deadline for reporting malpractice payments from 30 days to 120 days because the
additional time is needed only if limited reporting continues. If all malpractice
payments are reported, 30 days from notification of payment is sufficient. Based on
management comments, we revised the recommendation for reporting by the Judge
Advocates General to the Surgeons General by extending the reporting period to
45 days. We request that the ASD(HA) reconsider her position and provide additional
comments and that the Army and the Navy provide implementation plans and dates in
response to the final report by August 26, 1998.




                                          ...
                                          111
Table of Contents

Executive Summary                                                       i

Part I - Evaluation Results
      Evaluation Background                                             2
      Evaluation Objectives
      Finding A. DOD Reporting of Malpractice Payments                  4
      Finding B. DOD Reporting of Adverse Privileging Actions          21
      Finding C. Completeness of DOD Automated Files                   31

Part II - Additional Information
      Appendix A. Evaluation Process
        ScQpe
        Methodology                                                    z;
        Management Control Program                                     41
        Summary of Prior Coverage                                      42
      Appendix I% Other Matters of Interest
      Appendix C. Malpractice Payment Policies and Procedures
      Appendix D. Laws Applicable to DOD for Mal~~~tice Claims
      Appendix E. Adverse Privileging Action Policies and Procedures
      Appendix F. Proposed Definitions of Key Terms for Future
                   DOD Policy
      Appendix G. Comparison of Defense Practitioner Data Bank and
                   National Practitioner Data Bank Records
      Appendix H. Report Distribution

Part III - Management Comments
     Assistant Secretary of Defense (Health Affairs) Comments
     Department of the Army Comments                                   :
     Department of the Navy Comments                                   70
     Air Force Surgeon General Comments                                76
     Air Force Legal Services Agency Comments                          79
Part I - Evaluation Results
Evaluation Background
    This evaluation was requested by the Assistant Secretary of Defense (Health
    Affairs) (ASDPA]).

    Creation of the National Practitioner Data Bank. The Health Care Quality
    Improvement Act of 1986, November 14, 1986, authorized the Secretary of the
    Department of Health and Human Services (DHHS) to establish a data bank to
    collect and release information relating to the professional competence and
    conduct of physicians, dentists, and other healthcare practitioners and
    providers.’ The Act also authorized the Secretary of the DHHS to enter into a
    memorandum of understanding with the Secretary of Defense. Congress
    intended to improve the quality of healthcare b restricting the ability of
    incompetent healthcare practitioners and provi d ers to move from State to State
    without disclosure or discovery of their previous damaging or incompetent
    pXfOrITWlCe.

    The  DHHS established the National Practitioner Data Bank (NPDB) on
    September 1, 1990. The NPDB is a system of computerized records maintained
    for DHHS by a contractor. It is not intended to be the primary source of
    practitioner information; rather, it supplements information available from other
    sources so healthcare entities can make credentialing and privileging decisions.
    Healthcare entities use the NPDB for reporting actions in accordance with
    guidelines and for querying.

    NPDB Reporting. Three general categories of information are reportable to the
    NPDB.

            o Adverse Privileging Actions. Healthcare entities are required to
    report any adverse privileging action taken against a physician or dentist lasting
    more than 30 days.

            o Licensure Actions. State licensing boards are required to report any
    revocation, suspension, or other restriction of a practitioner’s license.

             o Medical Malpractice Payments. Insurance carriers are required to
    report within 30 days any payment they make on the behalf of a healthcare
    practitioner.

    NPDB Querying. Healthcare entities query the NPDB to obtain any relevant
    adverse information regarding a particular practitioner’s professional
    competence or conduct.

    DOD Policy about the NPDB. On September 21, 1987, prior to the issuance of
    any implementing NPDB guidance, DOD and DHHS signed a memorandum of
    understanding outlining DOD participation in a national reporting system. After

    “Healthcare practitioner” refers to any henlthcare professional required to be licensed to
    practice. “Healthcme provider” refers to any licensed healthcare professional required to be
    privileged by a facility to practice at the facility. See Appendix F for definitions of healthcare
    terms used in this report.


                                                2
DHHS issued the NPDB guidelines, DOD released DOD Directive 6025.14,
“Department of Defense Participation in the National Practitioner Data Bank,”
November 1, 1990, which requires DOD healthcare entities to participate in the
NPDB. DOD Instruction 6025.15, “Implementation of Department of Defense
Participation in the National Practitioner Data Bank,” November 9, 1992,
provides additional policy, procedures, and informational requirements.

NPDB reporting is the responsibility of the Military Departments’ Surgeons
General. Although malpractice claims and adverse privileging actions originate
at a military treatment facility (MTF), when a final reporting decision is made,
that decision is reviewed and approved by the appropriate Surgeon General
before being reported to the NPDB.

Defense Practitioner Data Bank. DOD established the Defense Practitioner
Data Bank (DPDB) in 1982 for risk management. The DPDB is operated by
the Department of Legal Medicine, Armed Forces Institute of Pathology
(AFIP), Office of the ASD(HA). The DPDB is composed of two databases,
one for malpractice payments and the other for adverse privileging actions.
AFIP performs risk management analyses of the databases to assist the
ASD(HA) in implementing policy changes designed to improve the quality of
healthcare. The DPDB operates independent of the NPDB.

ASD(HA) Proposals for Congress. On November 6, 1997, the ASD(HA)
testified before the National Security Subcommittee, House Appropriations
Committee, U.S. House of Representatives, regarding trust in military
physicians and the DOD healthcare system. One issue addressed in the
testimony was DOD implementation of the NPDB. Specifically, the ASD(HA)
stated that he had requested the Office of the Inspector General, DOD, to audit
compliance of NPDB reporting and that he had taken actions to improve
reporting. The first improvement was to require the Military Departments to
eliminate their backlogs of malpractice payment cases as soon as possible.
Second, he proposed an external civilian panel to review all malpractice
payments for which the Military Departments indicated the standard of care was
met or was attributable to a system problem. Whenever the civilian panel
disagrees with the Military Department, the Surgeon General will make the final
disposition.




                                    3
Evaluation Objectives
     The objectives of the evaluation were to:

           o determine the Military Departments’ overall effectiveness in
     implementing the NPDB guidelines;

              o assess DOD programs, policies, procedures, and practices for
     identifying, processing, and reporting to the NPDB those practitioners and
     providers associated with malpractice payments or subjected to adverse
     privileging actions; and

           o assess the management control program as it applies to the
     implementation of NPDB guidelines in DOD.

     See Appendix A for details on the evaluation scope and methodology, review of
     the management control program, and summary of prior coverage. Appendix B
     contains the details of an Inspector General, DOD, nonconcurrence to a draft
     revision of the DOD policies and procedures for reporting to the NPDB.
            Finding A. DOD Reporting of
            Malpractice Payments
            DOD reporting of malpractice payments to the NPDB needs
            improvement. Of 124 malpractice payment records reviewed,
            87 (70 percent) had not been reported to the NPDB. In ad$.ion, those
            reported had not been submitted in a timely manner. The limited
            reporting occurred because DOD policy requires reports for malpractice
            payments only when the Surgeon General determines a specific
            practitioner deviated from an accepted standard of care. The timeliness
            problem resulted from a lack of definitive policy on time frames for
            reporting and weaknesses in the reporting process. As a result, the
            NPDB had incomplete and untimely information and, when the NPDB
            was queried, healthcare entities did not have all relevant information
            available for making credentialing and privileging decisions.



Malpractice Payment Reporting Policies
    DHHS Policy. The primary policy outlining DHHS requirements for reporting
    malpractice payments to the NPDB is Title 45, Code of Federal Regulations,
    Part 60, “National Practitioner Data Bank for Adverse Information on
    Physicians and Other Health Care Practitioners,” October 17, 1989. It specifies
    that a report is to be sent to the NPDB whenever a malpractice payment is made
    on behalf of a healthcare practitioner. Reports to the NPDB must be submitted
    within 30 days from the date of payment. Reports are sent regardless of how
    the matter was settled (arbitration, court judgment, or settlement). However,
    healthcare practitioners are not required to report any payment personally made
    to settle a malpractice claim. Claims paid on behalf of a clinic, group, or
    hospital are also not reported to the NPDB. We have been informed by DHHS
    staff members that they are in the process of revising the procedures for the
    private sector to require all malpractice payments to be reported, even those on
    behalf of clinics, groups, hospitals, and other corporations. In addition, the
    specific practitioner associated with the payment will still be identified.

     Title 45, Code of Federal Regulations, Part 60, is based on the Health Care
     Quality Improvement Act of 1986 (Public Law 99-660). The legislative history
     of the public law clearly shows the congressional committee creating the law
     understood that malpractice data is to be viewed with caution and that
     malpractice payments are only clues to a practitioner’s history. But,
     understanding those limitations, the committee felt malpractice data would
     prove extremely useful. The committee also understood that there are claims
     that have little merit with respect to medical services that meet or exceed
     acceptable standards of medical care, but because they can be resolved
     economically, it makes sense to settle rather than litigate them. However, the
     committee still chose not to except those “nuisance” claims from reporting.
     Finally, the committee was very clear that they wanted DHHS to enter into a
     memorandum of understanding with DOD to implement the reporting provisions
     of the public law so physicians identified and traced under the law would not
     “disappear” into DOD.
Finding A. DOD Reporting           of Malpractice   Payments


      DOD Policy.    Two key DOD policies outline the requirements for reporting
      malpractice payments to the NPDB: DOD Directive 6025.14 and DOD
      Instruction 6025.15. In addition, each Military Department has implementing
      policies based on the DOD Directive and Instruction. Appendix C contains
      additional information regarding the Military Department policies.

      In addition to DOD policy on NPDB reporting, three Federal laws and one
      Supreme Court decision specifically prescribe who can submit a malpractice
      claim, who is liable, and the process for submitting a claim against the Federal
      Government and DOD. Those are the Federal Tort Claims Act, the Gonzales
      Act, the Military Claims Act, and the Feres Doctrine. As a result of those laws
      and doctrine, all malpractice payments are made on behalf of the
      U.S. Government and a specific practitioner cannot be named in the claim or
      the lawsuit. Therefore, senior staff within the Office of the ASD(HA)
      concluded that since malpractice payments are not made on behalf of any
      practitioners, no reporting is required. However, by reporting those
      practitioners who fail to meet an acceptable standard of care, DOD believes it is
      meeting the intent of the law. We believe that the congressional requirement
      for a memorandum of understanding between DHHS and DOD to implement the
      section of the law addressing NPDB reporting demonstrates that Congress
      intended for DOD to report all malpractice payments. Appendix D contains
      additional details about the laws and the Supreme Court decision.



Malpractice Payment Processing Procedures
      Military Department   Procedures. The Military Departments have established
      procedures to process malpractice claim payments and submit reports to the
      NPDB. The procedures were based on the organizational structures of their
      legal and medical departments, as well as circumstances that were unique to the
      Military Department. Although the specific procedures were different for each
      Military Department, the procedures were based on DOD policies for processing
      malpractice payments and reporting to the NPDB. The procedures required, at
      a minimum:

                0   submission of a Standard Form 95, “Claims for Damages, Injury, or
      Death”;

                0   investigation of the circumstances regarding the claim by MTF staff;

                0   reviews of the allegations of the claim by medical and legal personnel;

                0   determinations of standard of care;’




      *See Appendix   F for a definition.
                             Finding A. DOD Reporting of Malpractice Payments


        o notification to the practitioners involved requesting their input on the
care related to the claim; and

        o reporting to the NPDB, as appropriate, after payment is made, based
on the review and recommendation of the Surgeon General review panel and the
final determination by the Surgeon General.

Appendix C provides additional information about the procedures used by the
Military Departments for processing malpractice claims and reporting
malpractice payments to the NPDB.

Private Sector Procedures. Reporting in the private sector is usually done by
the insurance company that made the malpractice payment on behalf of a
practitioner. Because all payments are reported, standard of care determinations
are not a factor in the reporting decision.

DOD-Unique Procedures. Unlike the private sector, malpractice claims and
lawsuits against DOD are handled by two organizationally separate entities;
submissions to the NPDB are handled by a third separate entity. The Military
Departments’ Judge Advocates General (JAGS) can independently handle
malpractice claims of up to $200,000. Claims exceeding $200,000 are handled
by the Military Departments’ JAGS with approval from the Department of
Justice. Lawsuits are handled within the Department of Justice by U.S.
Attorneys with the support of the Military Departments’ JAGS. Neither is
involved in NPDB reporting. If any payments result, reporting to the NPDB is
done by the Military Departments’ Surgeons General. However, the Surgeons
General are not involved in malpractice claims processing or payment.

Malpractice Payments. AFIP estimated that between 800 and 1,000
malpractice cases are closed each year and about half result in payments.
During the period 1992 through 1996, an average of 354 malpractice payments
(172 Army, 71 Navy, and 111 Air Force) were made through the Judgment
Group Fund, Department of Treasury.’ During that same period, an average of
52’ malpractice payment reports (6 Army, 9 Navy, and 38 Air Force) were sent
to the NPDB.




?‘he Judgment Group Fund includes all payments made under the Federal Tort Claims Act
exceeding $2,500. It does not include the small number of payments under $2,500 or payments
made under the Military Claims Act.
be   difference between the sum of the individual Military Department averages and the overall
average is due to rounding.



                                          7
Finding A. DOD Reporting of Malpractice Payments


Reporting to the NPDB
      As of December 31, 1997, the NFDB contained 136,624 malpractice payment
      reports. Of those, 321 were reported by DOD. Table 1, based on data from the
      NPDB, shows malpractice payments reported by calendar year and Military
      Department.


                             Table 1. Malpractice Payments
                                  Reported to the NIPDB
                              (data as of December 31, 1997)

                                                                                   Total

        1990-199 1’            3                0                  9                 12
        1992                  12                0                16                  28
        1993                  13               10                56                  79
        1994                   1               19                23                  43
        1995                   0                4                43                  47
        1996                   4               10                50                  64
        1997                   3                9                36                  48

          Total               36               52                233’               321

        ‘Period covers September 1, 1990, when NPDB reporting began, through
        December 31, 1991.

        ZThe higher reporting by the Air Force does not reflect the quality of care provided,
       b_utayments                                       reporttocess.       -




Reporting by the Military Departments
      Military Department    Reporting. DOD reporting of malpractice payments
      needs improvement. We sampled malpractice payments made after
      September 1, 1990.’ Of 124 malpractice payment records reviewed, only
      37 (30 percent) resulted in reports to the NPDB. For the remaining 87 records,
      most were not reported because, consistent with DOD policy, the Surgeons
      General determined that either the standard of care was met or there was a
      system error.6



      ‘Appendix A contains details on the sample selection.
      6A system error, according to current Military Department procedures, occurs when the death or
      injury is not caused by a practitioner or is the result of a failure in a standard operating
      procedure within a facility, such as mislabeled supplies or failure by the pharmacy to follow
      procedures for dosage verification.



                                                    8
                         Fiiding   A. DOD Reporting     of Malpractice   Payments


        Army Reporting Results. Of the 47 Army malpractice pa ments
reviewed, only 9 (19 percent) had been reported to the NPDB. 0 fythe 38 not
reported, 26 showed the standard of care was met, 10 were identified as a
system error, 1 had incomplete information and a reason for not reporting could
not be identified, and 1 involved a partnership provider and was not reportable.
Generally, the Surgeon General agreed with the determinations made by the
various review panels. One claim in the sample was unique because three
reviews, completed prior to the Surgeon General’s decision, indicated the
standard of care was not met; however, the Surgeon General determination was
not to report.

         Navy Reporting Results. Of the 30 Navy malpractice payments
reviewed, 15 (50 percent) resulted in a report to the NPDB. Of the
15 payments not reported, 6 had no explanation in the files, 3 indicated the
standard of care was met, 3 resulted from a system error, 2 were not reportable
practitioners per Navy policy, and 1 was based on the Surgeon General’s
decision not to report even though the review panel recommended reporting to
the NPDB.

        Air Force Reporting Results. Of the 47 Air Force malpractice
payments reviewed, 13 (28 percent) had been reported to the NPDB. Of the
remaining 34 malpractice payments, 30 had not been reported because the
standard of care was met, 2 were the result of system errors, and 2 were not
reportable practitioners (resident and intern).

DOD Policy on What to Report.        DOD policy does not require reporting when
the standard of care is met or if the incident was the result of a system error. In
the memorandum of understanding between DOD and DHHS, the ASD(I-IA)
agreed to report all malpractice payments, even when the standard of care was
met. However, when DOD implementing policy was issued, reporting
malpractice payments was required only when the standard of care was not met
and the incident was not the result of a system error. The ASD(HA) notified
the Secretary of the DHHS on November 9, 1992, of the deletion of the
provisions in the memorandum of understanding that were inconsistent with the
DOD Instruction.

Current DOD policy requires a report be submitted to the NPDB when the
malpractice payment is considered to be made for the benefit of a healthcare
practitioner. That occurs if the practitioner was responsible for an act or
omission that was the cause (or a major contributing cause) of the harm that
gave rise to the payment and one of the following circumstances was found to
exist:

       o the practitioner deviated from the standard of care in the act or
omission, as determined by the Surgeon General;

       o the payment was the result of a judicial determination of negligence
and the Surgeon General supported the court’s decision; or

       o the payment was the result of an administrative or litigation settlement
and the Surgeon General determined a report was required.




                                     9
Finding A. DOD Reporting of Malpractice Payments


      DOD does not send reports to the NPDB for administrative or litigation
      settlements that were due to circumstances outside the control of the
      practitioners, such as drugs mislabeled by the supplier, equipment or power
      failure, and accidents unrelated to patient care. Reports are also not sent to the
      NPDB if the settlement was based on administrative or litigation considerations
      rather than clear evidence that a practitioner was negligent.

      Complying With NPDB Guidelines Would Result in More Reports. DOD
      policy restricts NPDB reporting to those malpractice payments occurring when
      standard of care was not met by a practitioner. The DOD policy does not
      comply with the NPDB policy of reporting all malpractice payments, whether
      the standard of care was met or not.

      We agree that there are valid exceptions to reporting all malpractice payments to
      the NFDB. It would not be fair to report a practitioner when the payment was
      the result of circumstances outside the control of any practitioner. However,
      whenever any practitioner is involved, DOD should report the malpractice
      payment, even if the standard of care was met. Reports on malpractice
      pa ments made when the standard of care was met should include that
      in r ormation .


Timeliness of Reporting Malpractice Payments
      DOD reporting of malpractice payments to the NPDB needs improvement.
      None of the Military Departments reported malpractice payments in a timely
      manner. However, because of the differences in the Military Department
      procedures, we did not compare the Military Departments to each other.
      Untimely reporting was the result of inadequate policy regarding time standards
      for reporting, plus delays due to three procedural problems. First, the offices
      of the Army and the Navy Surgeons General did not receive complete and
      timely information on malpractice payments. Second, the processes within the
      offices of the Surgeons General increased the processing time. Third, there was
      no oversight by the Office of the ASD(HA) to ensure reporting was being done
      in a reasonable time frame.

      Overall Reporting by the Military Departments. The average time to process
      31 malpractice payments varied by Military Department from 10.7 months to
      26.3 months. Of 37 malpractice payments reported’ to the NPDB, 31 had
      sufficient documentation to determine processing time.

              Army Processing Time. For seven malpractice payments reviewed, the
      average time from payment date to report date was 10.7 months. The Army
      sample included nine malpractice payment reports sent to the NPDB. For two
      of those nine payments, the report submission date was not available, leaving
      seven for analysis. However, eight of the nine reports occurred prior to 1993.
      As a result, we concluded that the data did not adequately reflect recent Army
      processing time for malpractice payments. Therefore, we reviewed 39 records
      for which we had closure dates, whether the payment was reported to the NPDB


      ‘Appendix   A contains   details on the sample selection.



                                                     10
                         Finding A. DOD Reporting of Malpractice       Payments


or not. For those records, we calculated the period of time from the date of
malpractice payment until the Surgeon General made a final reporting decision.
The average processing time was 17.2 months.

The Army informed us that receiving complete and timely information from the
agencies making the payments was a major problem. Unfortunately, one key
date in the process not obtained was the date the U.S. Army Medical Command
(Army Medical Command) received written notification of the malpractice
payment from the Army JAG offices or the Department of Justice.

        Navy Processing Time. For 11 malpractice payment records reviewed,
the average processing time from payment until a report was sent to the NPDB
was 26.3 months. The Navy sample included 15 malpractice payment reports
sent to the NPDB; however, only 11 contained sufficient data for analysis. In a
separate analysis of 17 malpractice payments that were complete, 7 of which
had been reported to the NPDB, we identified the period of time from date of
payment until the Navy Bureau of Medicine and Surgery (BUMED) was
notified of the payment by the Navy JAG. The average time for notification,
with all required payment information, was 8.1 months. Therefore, most of the
time required to submit a report to the NPDB was within the BUMED purview
to control.

        Air Force Processing Time. For the 13 Air Force malpractice payment
records reviewed, the average processing time from malpractice payment until
NPDB reporting was 11.8 months. The majority of the sample records
reviewed were reported prior to 1996, when the Air Force reengineered its
malpractice payment reporting process. Therefore, we judgmentally selected
nine malpractice payments in 1996 and 1997; three of the practitioners were
reported to the NPDB. The average reporting time was 5.8 months. Since
March 1996, receipt of complete payment information from the Air Force JAG
has not been a significant problem.

DOD Policy on When to Report. DOD policies do not stipulate a time frame
for reporting malpractice payments to the NFDB. In the private sector,
reporting is required within 30 days of payment. However, since DOD
malpractice payments are handled by agencies organizationally separate from
the one responsible for reporting, 30 days is not a realistic policy for DOD.
Two time frame standards are needed. First, .a standard is needed from the time
of payment, that is the date closed by the Milrtary Department JAGS or the
Department of Justice, until notification of payment is provided to the offices of
the Surgeons General. Second, a standard is needed for the offices of the
Surgeons General from the time they receive notification of the malpractice
payment until they report to the NPDB.

Obtaining Complete Information. Obtaining incomplete information was one
cause for the delay in reporting by the Army Medical Command and Navy
BUMED. The Army indicated that it did not always receive sufficient
information from the JAG to identify on whose behalf the payment was made.
As a result, additional information was needed before any reporting could be
completed. The Navy indicated that the JAG provided only minimal
information about the malpractice payment. Detailed information supporting




                                    11
Finding A. DOD Reporting of Malpractice Payments


      the payment was needed by BUMED prior to completing the review package for
      the Surgeon General. The Army and the Navy indicated they needed more
      detailed information regarding payment, reasons for the outcome, and the
      practitioners associated with the payment.

      The Air Force legal and medical organizations, at the base level, had internal
      processes to identify an practitioners associated with a potential malpractice
      claim. The Air Force 8 ffice of the Surgeon General did not rely on payment
      information to identify the practitioner associated with the malpractice payment
      made.

      Obtaining Timely Information. Delay in obtaining timely information about
      malpractice payments from the Military Department JAGS and the Department
      of Justice was another reason for the lengthy amount of time the Army and the
      Navy took to submit reports to the NPDB. The Army Medical Command and
      Navy BUMED stated they are receiving mal ractice payment information in a
      more timely manner. However, payment in Pormation should be provided to the
      Army Medical Command and Navy BUMED more frequently to further
      improve timeliness. For the Army and the Navy Surgeons General to report to
      the NPDB in a more timely manner, the Army and the Navy JAGS and the
      Department of Justice need to provide more timely support.

      The Army Claims Service* within the Army JAG indicated it provides copies of
      letters concerning malpractice payments to the Army Medical Command at the
      same time as it notifies the claimant. The Army Medical Command indicated
      that it does not get the information that quickly. The Litigations Branch’ in the
      Army JAG, which is separate from the Army Claims Service, also did not
      always provide timely payment information to the Army Medical Command.
      We examined a set of Litigations Branch memorandums providing malpractice
      payment information to the Army Medical Command. The memorandum dates
      ranged from 1.5 months to 7.5 months after the payment date.

      The Navy JAG was notifying BUMED bimonthly instead of annually, which
      helped improve the process. However, even receiving reports every other
      month is not adequate to ensure timely processing of reports to the NPDB.

      The Air Force Office of the Surgeon General had not experienced the timeliness
      problem because it had established strong communications with the Air Force
      JAG. This occurred, in part, because the Air Force JAG had a legal
      representative assigned to the Air Force Office of the Surgeon General. In
      addition, the JAG communicated regularly with the U.S. Attorneys working Air
      Force lawsuits. The JAG recognized the importance of timely ayment
      information to the NPDB reporting process and, since March 1896, has reported
      malpractice pa ment information on a monthly basis. For malpractice payments
      made in calen c&r years 1996 and 1997, the average time from the date of
      payment to the date of notification of payment to the Office of the Surgeon
      General was 3.9 months and 1.8 months, respectively.


      ?‘he Army Claims Service is responsible for malpractice claims submitted to the Army.
      he Army Litigations Branch is responsible for lawsuits filed against the United States for
      Army malpractice incidents.


                                                12
                         Finding A. DOD Reporting of Malpractice Payments


The ASD(HA) needs to increase dialog with the Department of Justice to
improve the timely provision of payment information. The U.S. Attorneys
were last officially notified of the requirement to report malpractice payments to
the Military Departments in a July 1, 1992, memorandum, which referred to
another memorandum dated November 1989. The November 1989
memorandum identified the information needed by the Military Departments
and the addresses to send the information. That notification has been
insufficient in ensuring the Military Departments receive payment information
in a timely manner. Only the Air Force received timely information, and that
was the result of regular communication by the Air Force JAG with the
U.S. Attorneys.

Processing Withii the Office of the Surgeon General. Processing within the
Military Departments* offices of the Surgeons General added to the timeliness
problem. Each Military Department had several reviews as part of the reporting
determination process, as shown in Table 2. Those reviews were in addition to
the Surgeon General reviews and any reviews done by the JAGS in support of
the legal case. The Army had up to three reviews: an MTF review;
a Consultant Case Review Branch review; and a review by a specialty panel at
the Surgeon General level, as needed. The Navy had up to three reviews:
a specialty review (previously completed at BUMED, now at the MTF level);
a Surgeon General consultant review, as needed; and a review by the
Professional Case Review Panel at the Surgeon General level. The Air Force
had up to three reviews: a specialty review; the Surgeon General medical
consultant review; and, as needed, a review by the Surgeon General Medical
Practice Review Panel. Reporting all malpractice payments within 30 days of
notification of payment, whether standard of care was met or not, may not
eliminate the processes required by the Surgeons General.




Oversight.   Another reason for untimely reporting was the lack of oversight by
the Office of the ASD(HA). DOD Instruction 6025.15 states the ASD(HA)
‘shall ensure that the policy established . . . is implemented.” DOD
Directive 6025.13, “Clinical Quality Management Program in the Military
Health Services S stem,” July 20, 1995, states the ASD(HA) shall monitor the
implementation 0 r “this Directive,” which includes the requirement to query
and report to the NPDB in accordance with DOD Directive 6025.14 and
DOD Instruction 6025.15.


                                   13
Finding A. DOD Reporting    of Malpractice     Payments


      The ASD(HA) did not ensure malpractice payments were reported to the NPDB
      in a timely manner. One of the mechanisms used in the past for overseeing the
      entire reporting process was the Risk Management Committee of the Tri-Service
      Quality Council. The Council included representatives from the Military
      Departments, AFIP, and the Office of the ASD(HA). NPDB reporting was
      discussed by the Committee. The Council stopped meeting in 1994. Shortly
      after the Council was disbanded, there was a noticeable drop in the number of
      reports submitted by the Army and Navy, as shown in Table 1.

      DOD succeeded the Council with two other groups that were used to share
      information. Representatives of the Military Departments and the Office of the
      ASD(HA) met in early 1997 to revise the current DOD Directive on NPDB
      reporting. In addition, in 1996, the Centralized Credentials Quality Assurance
      System (CCQAS) Working Group was established. It is composed of risk
      managers and credentials personnel from each Military Department, and it
      meets monthly to discuss issues relating to CCQAS, which can include NPDB
      reporting. However, the Military Departments had no formal process to report
      NPDB activities or problems. That changed in February 1998, when the Risk
      Management Committee was reestablished under the TRICARE Quality
      Council. The reestablished Committee’s first meeting was held on February 19,
       1998. Reestablishing the Committee was an excellent step for ensuring the
      ongoing exchange of information among the Office of the ASD(HA) and the
      Military Departments. In addition, we believe regular reporting to the Office of
      the ASD(HA) by the Military Departments on malpractice payments reported to
      the NPDB should help manage the reporting process and assist in identifying
      problem areas in the future.



Completeness of the NPDB
      As a result of the limited number of malpractice payment reports sent and the
      lengthy amount of time taken to send those reports, the NPDB did not have
      complete and timely information regarding DOD practitioners when healthcare
      entities queried the NPDB. The NPDB is one of the key sources of information
      used by the Military Departments and the private sector when making
      credentialing and privileging decisions. Incomplete data in the NPDB could
      result in healthcare entities making uninformed decisions about a practitioner.



Concerns Identified by DHHS
      On August 7, 1996, the Associate Director for Policy, Division of Quality
      Assurance, Health Resources and Services Administration, Public Health
      Service, submitted the report, “Improving the Coverage of the National
      Practitioner Data Bank and Streamlining Department of Defense Participation,”
      to the Deputy Assistant Secretary of Defense for Clinical Services, Office of the
      ASD(HA). The report states that there was variance between the agreements in
      the memorandum of understanding between DOD and DHHS and how the
      Military Departments were reporting to the NPDB. The variances occurred in
      what to report, terminology, time frames, and wording that appears on the
      forms. The report recommended reporting all malpractice payments and


                                          14
                                  Finding A. DOD Reporting         of Malpractice   Payments


     adverse privileging actions as defined in the law and within the period specified,
     thereby reducing the reporting burden and duplication of effort through greater
     efficiency. It also recommended rewriting the DOD Directive to provide clearer
     guidance to the Military Departments, which would bring them closer to full
     compliance with the Health Care Quality Improvement Act of 1986. The report
     suggested that DOD send malpractice payment and adverse privileging action
     reports directly to the NPDB and the NPDB would forward the reports to AFIP.
     DOD did not respond to the report.


Recommendations,         Management               Comments,          and Evaluation
Response
    Revised Recommendation.      As a result of management comments, we revised
    draft Recommendation A.2.a. to allow 45 days, instead of 30 days, for the
    Military Departments’ Judge Advocates General to provide malpractice
    information to the Military Departments’ Surgeons General.

     A.l. We recommend           that the Assistant Secretary of Defense
     (Health Affairs):

           a. Enter into a memorandum of understanding with the Assistant
    Attorney General, Civil Division, Department of Justice, to:

                   (1) Reauire the U.S. Attornevs to nrovide maluractice
    information   within 3tj days of payment or denial-and include, at a
    minimum:

                             0    patient name, case number, and date of incident;

                             0    outcome;

                             0    payment or denial date and amount (if any);

                             0    the basis for the disposition;

                         0 the names of practitioners associated with the
    incident,
        _     and whether those practitioners breached standard of care based
    on Department of Justice medical reviews; and

                             o copies of any medical reviews done in support of the
    malpractice   payment.

                  (2) Include an agreement for the Department of Justice to
    provide a quarterly (or more frequent) reconciliation of outstanding claims
    from the previous quarter.

    Assistant Secretary of Defense (Health Affairs) Comments. The ASD(HA)
    concurred with the recommendation, stating that the memorandum of
    understanding will specify what type of information the Military Departments
    require in order to efficiently process paid malpractice claims and will include



                                             15
Finding A. DOD Reporting of Malpractice Payments


      an agreement for the Department of Justice to send a monthly report on new
      claims that are outstanding. Cases pending litigation will not be included in the
      report.
      Department of the Army Comments. Although not required to comment, the
      Army agreed with the recommendations.

      Department of the Navy Comments. Although not required to comment, the
      Navy agreed with the recommendation and requested that the patient’s social
      security number be included in the list of required information.

      Evaluation Response. The ASD(HA) comments were fully responsive to the
      requirement that the Department of Justice provide malpractice information to
      the Military Departments, and partially responsive to requiring a quarterly
      reconciliation between the Military Departments and the Department of Justice.
      Receiving reports on only the new cases filed will not solve the problem of
      timeliness identified in the report. Therefore, we request that the ASD(HA)
      reconsider including a list of cases pending litigation on each Department of
      Justice report so the Military Departments are made aware of all outstanding
      cases. We suggest that the Navy provide the request for additional malpractice
      information (patient’s social security number) to the Risk Management
      Committee for possible inclusion in the memorandum of understanding with the
      Department of Justice.

      A.1. We recommend that the Assistant Secretary of Defense
      (Health Affairs):

             b. Revise current policy to:

                    (1) Require the Military Departments to report ail
      malpractice payments whether standard of care was met or not, except for
      those cases due to circumstances outside the control of any practitioner,
      such as drugs mislabeled by the supplier, equipment or power failure, or
      accidents unrelated to patient care.

                    (2) Require that National Practitioner Data Bank (NPDB)
      reports be sent within 30 calendar days of receipt of written notification of
      malpractice payment.

                   (3) Direct the Surgeons General to provide, at least annually,
      management information outlining the number of malpractice payments,
      the number of reports submitted to the NPDB, timeliness of reports, any
      backlog, and any problems with NPDB reporting.

     Ass&ant Secretary of Defense (Health Affairs) Comments. The ASD(HA)
     nonconcurred with the recommendation to modify DOD policy to require the
     Military Departments to report all malpractice payments to the NPDB. She
     stated that amending the memorandum of understanding between DOD and
     DHHS was done in an effort to level the playing field between DOD healthcare
     practitioners and practitioners in the civiban community. The ASD(HA) further
     stated that the civilian community protects healthcare practitioners by using a
     “corporate shield” whereby the practitioner’s name is deleted from the claim
     and instead the claim is filed against the corporation. The ASD(HA) realizes


                                          16
                         Finding A. DOD Reporting of Malpractice Payments


that DHHS is trying to remove the corporate shield loophole from the law, but
believes that elimination of the corporate shield should be accomplished before
allowing reporting of all malpractice payments on DOD practitioners. To
facilitate NPDB reporting, DOD has contracted with an external civilian agency
to review all malpractice pa ments for which the Military Departments
determined that the standar d of care was met or the payment was attributable to
a systems error. The results will be provided to the Surgeons General as
additional information in making final reporting decisions. The ASD(HA)
stated that a large number of patd malpractice claims are settled for the
convenience of the Government and not on the basis of the merits of the claim.
The ASDQIA) further stated that DOD practitioners have no say in whether a
claim is settled, because the claim is against the Government. For DOD policy
to mandate reporting of all malpractice payments to the NPDB would be a
devastating blow to the morale of its practitioners.

The ASD(HA) also nonconcurred with the 30-day reporting deadline and stated
that 120 days is required. The additional time would allow adequate time to
collect patient records and other documentation, obtain input from involved
practitioners, perform internal and external peer reviews of the case, and make
the standard of care determination.

The ASD(HA) concurred with directing the Surgeons General to provide
management information regarding NPDB re rting and stated the DOD Risk
Management Committee will be responsible p”
                                          or monitoring the metrics each
quarter.

Department of the Army Comments. Although not required to comment, the
Army disagreed to reporting all malpractice payments to the NPDB within
30 days of notification of payment. It stated that the premise underlying the
recommendation was a Service-imposed requirement that a standard of care
determination be made before issuance of any report. The Army believed other
administrative breakdowns were the primary cause for the low report rate. The
Army also stated that the 30-day standard for submission of reports was not
workable. It believed the standard should be 90 to 120 days. The Army agreed
with reporting NPDB reporting management information.

Department of the Navy Comments. Although not required to comment, the
Navy disagreed with the recommendation to report all malpractice payments to
the NPDB. It stated that the NPDB does not require reporting all malpractice
payments, only those made on behalf of a practitioner. The involved
practitioner may have knowledge of the action, but unlike civilian practitioners,
has no control over the Government’s decision to settle or litigate the claim. In
the Navy, the Surgeon General carefully screens cases in which a payment has
been made and reports the involved practitioner when the standard of care was
not met. Those are the cases that the payment is deemed to be made on behalf
of a practitioner. This is a fair and reasonable process that complies with the
NPDB requirements and protects practitioners. Implementation of the proposed
recommendation would place military practitioners on an unfair and unequal
playing field, with potential adverse impacts on morale and readiness.

Department of the Aii Force Comments. Although not required to comment,
the Air Force Surgeon General and the Air Force Legal Services Agency
disagreed with reporting all malpractice payments to the NPDB within 30 days


                                    17
Finding A. DOD Reporting of Malpractice Payments


      of payment notification. The Surgeon General stated that the recommendation
      was inappropriate because all malpractice payments do not have to be reported,
      only those made on behalf of individual practitioners. Also, unlike civilian
      practitioners, Air Force practitioners are not notified of their involvement in a
      claim until after payment has been made, providing no opportunity to respond
      to the claim. Further, decisions on litigation and payment are outside the
      control (or knowledge) of the individual practitioner. Accordingly, the Air
      Force consistently identified significantly involved practitioners and reported
      individuals to the NPDB when the Air Force determined it paid the claim on
      behalf of the practitioner. The Air Force Legal Services Agency stated the
      NPDB would be better served by reporting only confirmed malpractice. In
      addition, the Air Force Surgeon General nonconcurred with the 30-day
      reporting deadline, recommending 120 days.

      Evaluation Response. The ASD(HA) comments were partially responsive.
      We disagree that reports should be sent to the NPDB only for malpractice
      payments in which standard of care was not met. The legislative history of the
      public law that created the NPDB clearly demonstrates that Congress wanted all
      malpractice payments reported, including nuisance claims. The “corporate
      shield” concept is a loophole in the law that DHHS is working to eliminate.
      The fact that DHHS is working to eliminate the loophole is further evidence that
      the intent of the program is to report all payments. DOD should take action now
      to be consistent with the intent of the program, rather than waiting for a known
      loophole to be closed. In addition, the original memorandum of understanding
      between DOD and DHHS stated that DOD would report all malpractice
      payments. We also see no need to revise the deadline for reporting malpractice
          ments from 30 days to 120 days, because the additional time is needed only
      !?i!mited reporting continues. If all malpractice payments are reported, 30 days
      from notification of payment is sufficient.

      The Army comment that the premise of the recommendation is a
      “Service-imposed” requirement is incorrect. The premise of the
      recommendation is that DOD policy requires only limited reporting. The Air
      Force comment regarding practitioner notification of claims is not consistent
      with the information it provided us when explaining its malpractice payment
      processing procedures (See Appendix C). We request that the ASD(HA)
      reconsider her position regarding reporting all malpractice pa ments within
      30 days and provide additional comments in response to the rymal report. The
      ASD(HA) comments regarding management information reporting by the
      Surgeons General were fully responsive.

      A.l. We recommend that the Assistant Secretary of Defense
      (Health Affairs):

             c. Review the information provided by the Surgeons General
      regarding NPDB reporting and take corrective action to resolve any
      reporting problems and provide assistance in eliminating any backlog.

             d. Provide coverage of NPDB reporting as part of its management
      control program. Appendix A provides details on the adequacy of
      management’s self-assessment.




                                          18
                         Finding A. DOD Reporting of Malpractice Payments


Assistant Secretary of Defense (Health Affairs) Comments.        The ASD(HA)
concurred with the recommendations. The Assistant Secretary stated that
review of the Surgeons General reports will be done at the quarterly Risk
Management Committee meeting, which will be the oversight body for the
management control plan.

Department    of the Army and Department      of the Navy Comments.
Although not required to respond, the Army and the Navy agreed with the
recommendations.

A.2. We recommend the Judge Advocates General of the Military
Departments:

       a. Provide malpractice information to the offkes of the Surgeons
General within 45 days of the payment or denial. At a minimum, the
report should include the:

                  patient name, case number, and date of incident;

                  outcome;

                  payment or denial date and amount (if any);

                 basis for the disposition;

                names of practitioners associated
                                          -   - _ with the incident,
                                                            _    .   and
whether those practitioners breached standard of care based on Judge
Advocate General medical reviews; and

               o copies of any medical reviews done in support of the
malpractice   payment.

       b. Provide at least a quarterly reconciliation   of outstanding   claims
from the previous quarter.

Department   of the Army Comments. The Army concurred with the draft
report recommendation to report malpractice information within 30 days and to
provide a quarterly reconciliation.

Department     of the Navy Comments. The Navy partially concurred, stating
that information will be provided within 45 days rather than the 30-day
reporting deadline outlined in the recommendation. The Navy concurred with
providing a quarterly reconciliation of outstanding claims.

Department     of the Air Force Comments. The Air Force Surgeon General and
the Air Force Legal Services Agency partially concurred, requesting the
reporting deadline be extended from 30 days to 45 days to allow for current
operational procedures to continue. The Air Force Legal Services Agency also
stated that a monthly report is provided on all closed claims and litigated cases.
It further stated that while it does not include all the information in the
recommendation, the report and other information has been or will be provided




                                    19
Finding A. DOD Reporting of Malpractice Payments


      to the Surgeon General to comply with the recommended reporting requirement.
      The Air Force concurred with the recommendation to provide quarterly
      reconciliation, stating procedures are already in place to meet the requirements.

      Evaluation Response. The Military Departments comments were responsive.
      As a result of management comments, we revised the number of days in which
      to report malpractice information by increasing it to 45 days.

      A.3. We recommend the Surgeons General of the Military Departments:

             a. Identify the specific information and documents required from
      the Department of Justice and the appropriate Military Department Judge
      Advocate General in order to identify practitioners to report to the NPDB.
      A minimum Ust is provided in Recommendations A.l. and A.2.

      Department of the Army Comments. The Army concurred.

      Department of the Navy Comments. The Navy concurred.

      Department of the Air Force Comments. The Air Force Surgeon General
      concurred and requested a point of contact and phone number be added to the
      malpractice information list.

      Evaluation Response. The Military Departments comments were responsive.
      We suggest that the Air Force present its request for additional malpractice
      information (points of contact and phone number) through the Risk Management
      Committee for possible inclusion in the Department of Justice memorandum of
      understanding and in the JAG requirements.

      A.3. We &commend the Surgeons General of the Military Departments:

            b. Provide coverage of NPDB reporting as part of their
      management control programs. Appendix A provides details on the
      adequacy of managements’ self-assessments.

      Department of the Army Comments. The Army concurred.

      Department of the Navy Comments. The Navy concurred.

     Department of the Aii Force Comments. The Air Force Surgeon General
     concurred and stated that NPDB reporting is tracked monthly and reported to
     the Commander, Air Force Medical Operations Agency, and the Air Force
     Surgeon General.




                                         20
              Finding B. DOD Reporting of Adverse
              Privileging Actions
             Although the Military Departments were reporting physicians and
             dentists, the specific adverse privileging actions reported to the NPDB
             varied widely. In addition, the Military Departments did not report the
             actions taken in a timely manner, although processing time was
             improving. The variation in reporting occurred because DOD and
             Military Department policies inconsistently define the various types of
             adverse privileging actions and which actions to report. The timeliness
             problem occurred because DOD lacked policy establishing a time frame
             for reporting adverse privileging actions and because the Office of the
             ASD(HA) did not provide adequate oversight to ensure reporting was
             completed in a timely manner. As a result, healthcare entities querying
             the NPDB did not have all relevant information available when making
             credentialing or privileging decisions.



Adverse Privileging Actions Reporting Policies
     DHHS Policy. The DHHS implementing policy, Title 45, Code of Federal
     Regulations, Part 60, defines an adverse privileging action as any professional
     review action that adversely affects the clinical privileges of a physician or
     dentist. “Adversely affects” is further defined as a denial, reduction,
     restriction, revocatron, or suspension of clinical privileges. lo

              What and Who to Report. DHHS requires a civilian hospital or other
     eligible healthcare entity to report physicians and dentists when the healthcare
     entity:

                     o takes a professional review action that adversely affect the
     provider’s clinical privileges for a period of more than 30 days; or

                    o accepts the provider’s surrender or restriction of clinical
     privileges while under investigation for professional incompetence or improper
     professional conduct, or in return for not conducting an investigation or
     professional review action.

     In addition, revisions to reported adverse privileging actions, such as full or
     partial reinstatement, are reportable to the NPDB.

             When to Report and to Which Agency. DHHS policy requires
     healthcare entities to report adverse privileging actions within 15 days of the
     date the adverse action is taken or clinical privileges are voluntarily surrendered




     “See Appendix F for definitions.



                                          21
Finding B. DOD Reporting of Adverse Privileging Actions


      or restricted. Healthcare entities report to the appropriate licensing authority,
      which forwards the report to the NPDB within 15 days of receipt. Reporting
      time, therefore, should not exceed 30 days from the date that any reportable
      adverse privileging action is taken.

      DOD Policies.   Three key DOD policies define what, when, and which
      healthcare providers to report regarding adverse privileging actions. Those
      policies are DOD Directive 6025.13, DOD Directive 6025.14, and DOD
      Instruction 6025.15. In addition, each Military Department issued
      implementing instructions based on the DOD Directives and Instruction.
      Appendix E contains additional details regarding Military Department policies
      for processing adverse privileging actions.



Adverse Privileging Actions Processing Procedures
      Military Department Procedures. For the Military Departments, an adverse
      privileging action begins at an MTF when a questionable action occurs
      regarding a provider’s ability to provide patient care. The questionable action
      could be the result of negligence, a pattern of substandard care, impairment, or
      misconduct. Initially, the provider’s privileges are placed in abeyance,” which
      is not an adverse privileging action. However, a DD Form 2499, “Health Care
      Provider Actions Report, ” may be generated, identifying a possible adverse
      privileging action. After the possible adverse privileging action is identified,
      the processing through various levels to the Office of the Surgeon General
      differs among the Military Departments. However, all the Military
      Departments require the completion of due process procedures, including any
      hearing or appeal requested by the provider, before an action is deemed final for
      reporting purposes. Although an MTF commander may make a decision to take
      an adverse privileging action, for purposes of this evaluation report, we did not
      consider an adverse action final until the NPDB reporting decision was made.

      Private Sector Procedures. The private sector is required by NPDB guidelines
      to report all adverse privileging actions that exceed 30 days. Although not a
      statistically valid sample, we contacted several small and large civilian hospitals
      regarding NPDB reporting and found that three of the five hospitals contacted
      reported only after final action was taken, regardless of the length of time
      taken for due process procedures. Two indicated they submitted interim reports
      if the adverse action exceeded 30 days. Three State medical boards contacted
      indicated that they did receive some interim reports, but most of the reports they
      received were final actions.




      “See Appendix F for a definition.
      ‘*Hospitals report to State medical boards, which forward the report to the NPDB.



                                                22
                                Finding B. DOD Reporting of Adverse Privileging Actions




Reporting to the NPDB
     As of December 31, 1997, the NPDB contained 32,148 adverse privileging
     action reports. Of those, 326 were reported by DOD. Table 3, based on data
     from the NPDB, shows adverse privileging actions reported to the NPDB by
     calendar year and Military Department.




                                    I$epOrt$ tqt& NPDB ..’                            :              .:I.
            .:   :               (dataasof D&nber3J,~l997):                      ..   : .I    .I:I:,:~,~: I.
                                          :;m          .~;~~:~~~
                                                               Air   g&.                   ..#?&            i,
                         .-lx                             ,..


       1990~i991’           .: -,21              0                    O-                       21
       1992                     22              12                   17                        51
       1993                      17              3                   24                       .4+
       1994                     24          .I3                                        :     _.+y           j.

       1995                      13             33                   .;    ...        .:     -51:’
       1996                     21              17                   is                       -53 .-:.I.
       1997                     25              14                   22                        xg

         Total       :          143        .. 92                     91                      ..326

       Period covers September I* 1990, when NPDB reporting began, &rough
       December 31, 1991..


Reporting by the Military Departments
    Although the Military Departments were reporting adverse privileging actions
    for physicians and dentists, the specific adverse privileging actions reported
    varied widely. We sampled adverse privileging actions that occurred after
    September 1, 1990.13 Of the 94 reportable provider records reviewed,
    84 (89 percent) had been reported to the NPDB. However, when the final
    action was a reportable adverse privileging action, the Navy and the Air Force
    did not consistently report the associated adverse actions, such as suspensions.
    Reporting alcohol-impaired providers varied among the Military Departments.
    Those variations were the result of inconsistent definitions of reportable actions
    and inconsistent Military Department policies on what to report.




     13AppendixA contains details on the sample selection.


                                                  23
F’inding B. DOD Reporting of Adverse Privileging Actions


      Overall Reporting of Adverse Privileging Actions.     Of the 39 reportable
      Army provider records reviewed, 32 (82 percent) had been reported to the
      NPDB. Of the remaining seven, four were unique cases for which no pattern
      applied and three involved alcohol-impaired providers who should have been
      reported but were not. The Army cases not reported had occurred prior to
      May 1995, that is, before the process was transferred to the Army Medical
      Command.
      Of the 30 reportable Navy provider records reviewed, 29 (97 percent) had been
      reported. For the one not reported, BUMED personnel discovered that a report
      had not been sent when they pulled the record as part of our sample. Since the
      case was several years old, a decision was made not to submit a report to the
      NPDB at such a late date. However, a report had been submitted to the
      Federation of State Medical Boards when the action occurred. As discussed in
      more detail later, our review also indicated that when the final action was a
      reportable adverse privileging action, the Navy did not always report the
      associated adverse privileging actions.

      Of the 25 reportable Air Force provider records reviewed, 23 (92 percent) had
      been reported. For the two not reported, one was a denial of privileges that had
      been handled incorrectly. The other involved associated actions, limitation
      followed by reinstatement, neither of which had been reported.

      Reporting Associated Actions.       The Navy and the Air Force generally reported
      only final adverse privileging actions, not the associated actions, such as
      limitations, restrictions, or suspensions. As a result, if a provider’s privileges
      had been initially limited or suspended before being revoked, the Navy and the
      Air Force reported only the revocation. By not reporting all associated actions,
      the Navy and the Air Force did not fully disclose the actions taken against the
      physician or dentist. However, the Navy and the Air Force reported
      suspensions, as required, if the provider left the Military while under
      investigation. The Army reported associated actions, including limitations and
      suspensions, consistent with NPDB policy.

      In an Air Force case, a provider’s privileges had been limited and then
      conditionally reinstated; however, the Air Force reported only the conditional
      reinstatement. NPDB policy allows for two actions to appear on one report if
      the report clearly and fully identifies both actions. However, the report must
      reflect the adverse privileging action taken. In the Air Force example, the
      report should have indicated privileges had been limited and the length of time
      of the limitation. If multiple adverse privileging actions apply, more than one
      report may be sent, each identifying the individual action taken. Regardless of
      the number of actions taken, if the final action is a reportable action, then all
      adverse actions related to the incident should be reported to the NPDB.

      Reporting Alcohol-Impaired       Providers. The Military Departments varied in
      their reporting of alcohol-impaired providers. Army policy is to not report
      providers who successfully complete an alcohol rehabilitation program. The
      Army allows providers to enter a 2-year post-rehabilitation program; if they
      successfully complete the program, they are not reported to the NPDB. If a
      provider leaves the program before completion, he or she is reported to the
      NRDB. The policy does not differentiate between those providers who self-
      refer for the rehabilitation program and those involuntarily enrolled. The Navy


                                          24
                       Finding B. DOD Reporting of Adverse Privileging Actions


    treats adverse privileging actions against providers impaired by alcohol the same
    as any other adverse privileging actions. The actions are reportable if a final
    adverse action is taken. The Air Force did not have a written policy regarding
    providers impaired by alcohol. Typically, the provider was placed under
    suspension while in rehabilitation, which was not reported. In addition, the Air
    Force views providers who self-refer as seeking help and generally takes no
    punitive action. The Office of the ASD(HA) supports the policy to “help, not
    hurt” the provider.

    The private sector also appears to support the position of not reporting some
    alcohol-impaired providers. The Federation of State Medical Boards
    recommends that State boards encourage treatment of impaired providers by
    waiving reporting requirements for those who successfully complete treatment
    programs. At least 21 States have alcohol-impaired provider programs
    administered by the State medical boards, medical societies, or by some other
    agency for the State. Physicians who self-refer into an alcohol rehabilitation
    program are less likely to be reported to the NPDB. Although State boards are
    involved with licensing issues and DOD is involved with privileging issues, we
    believe the waiving of reporting by the State boards for physicians who self-
    refer was significant. In addition, the NPDB guidelines have conflicting policy.
    One section of the guidebook states that when a physician surrenders medical
    staff privileges because of personal reasons or infirmity, the surrender is not
    reportable. An infirmity can include alcoholism. However, another section of
    the guidebook states that if an impaired provider enters a rehabilitation program
    and relinquishes clinical privileges, then the action is reportable.

    Given the conflicting guidance from the NPDB and the approach in the private
    sector to encourage self-referral, we support not reporting those providers who
    self-refer into an alcohol rehabilitation program even if an adverse privileging
    action was taken. While the provider may not be reported to the NPDB, the
    provider’s privileges will be impacted appropriately to ensure patient safety.
    However, if the provider does not successfully complete the rehabilitation
    program, including all after-care requirements, then the provider should be
    reported to the NPDB. Providers who enter alcohol rehabilitation, but not
    through self-referral, should also be reported.



Consistency of Terms and Reportable Actions
    The variations in reporting by the Military Departments occurred because the
    DoD and Military Departments differed in the definitions of reportable actions
    and the types of actions to report. The NPDB guidelines specify which actions
    are reportable by healthcare entities. Those actions include denial, reduction,
    restriction, revocation, and suspension of privileges, including the decision to
    den the renewal of privileges, if the decision is based on a provider’s
    pro ressional incompetence or misconduct. In addition, reportable actions
    include revisions to previous actions, such as reinstatement. The list of codes
    for categories of reportable actions to the NPDB on the DD Form 2499 includes
    the same terms as the NPDB guidelines. However, the Military Department
    policies describe different types of adverse privileging actions when outlining
    the procedures to follow and, as a result, reporting was not consistent among
    the Military Departments or with NPDB guidelines.
Finding B. DOD Reporting of Adverse Privileging Actions


      Differences in Terms. The DOD policies and the memorandum of
      understanding do not use the specific terms in the NPDB guidelines when
      identifying reportable adverse privileging actions. The following highlight the
      inconsistencies in the DOD policies and the memorandum of understanding
      regarding adverse privileging actions.

              o The memorandum of understanding between DOD and the DHHS
      defines reportable actions as denials, limitations (restrictions), and revocations.
              o DOD Directive 6025.13 defines adverse privileging actions as denials,
      revocations, and suspensions of clinical privileges.

             o DOD Instruction 6025.15 identifies denials, limitations (restrictions),
      and revocations of clinical privileges as reportable actions.

              o Army Regulation 40-68, “Medical Services Quality Assurance
      Administration,” December 20, 1989, and Interim Change IO3 to Army
      Regulation 40-68, dated June 30, 1995,” identify denials, restrictions,
      revocations, and suspensions of clinical privileges as reportable actions.

               o Navy BUMED Instruction 6010.18, “Participation in the National
      Practitioner Data Bank,” May 18, 1993, includes denials, limitations, and
      revocations of clinical privileges as potentially reportable adverse privileging
      actions.

               o Air Force Instruction 44-l 19, “Medical Service Clinical Quality
      Management,” October 1, 1995, identifies denials, limitations, and revocations
      of clinical privileges as reportable actions.

      Although denials and revocations are included in all five DOD policies and the
      memorandum of understanding, most of the other terms are not: suspension is
      in two; limitation in four; and restriction in one. Reduction of privileges is not
      mentioned in any DOD or Military Department policy. In addition, none of the
      terms are defined in the DOD Directive or DOD Instruction; therefore, the
      Military Departments had to develop their own definitions, which differed.
      Finally, while not an adverse privileging action, reinstatement is a reportable
      revision to an action and should be included in the DOD policies.

               Liitation of Privilege& The Army did not report or define
      limitations. The Navy defined limitation as the permanent removal of a portion
      of a provider’s privileges. The Air Force definition was similar, but was
      expanded to include the permanent reduction of privileges or a restriction placed
      on all or part of the provider’s privileges. Limitation, to the Air Force,
      included proctoring and supervision of the provider.

              Restriction of Privileges. Restriction was used only by the Army. It
      was defined the same way the Navy defined limitation: the permanent removal
      of a portion of a provider’s clinical privileges.




      “Change 103 was extended until June 30, 1999, by the Army Surgeon General.


                                              26
                            Fm&g      B. DOD Reporting       of Adverse Privileging   Actions


              Suspension of Privileges. Suspension was defined by the Army and the
     Navy as the temporary removal of all or part of the provider’s clinical
     privileges. The Air Force expanded the definition to include restriction of all
     or part of the provider’s clinical privileges. The Air Force also included in its
     definition that suspensions were normally not reportable to the NPDB.

     Appendix F contains our proposed definitions for adverse privileging actions for
     any future DOD policy.
     Differences   in Types of Reportable Adverse Privileging Actions. Reportable
     actions in DOD policy were not consistent with reportable actions outlined in the
     NPDB guidelines. The terms in the DOD policies did not match the codes used
     by the NPDB for reporting adverse privileging actions. The problem was
     further complicated by the use of “limitation” in the policies; limitation is not a
     valid action in the NPDB guidelines or on DD Form 2499, which is used by
     DOD for reporting.

     The impact of the inconsistency between DOD policies and the NPDB guidelines
     is demonstrated by the Navy and the Air Force failing to report suspensions. In
     addition, the Navy and the Air Force use limitation as a reportable action,
     which has to be converted to a valid NRDB code before it can be reported.
     None of the Military Department policies include reduction in privileges as a
     reportable action.

     DOD and Military Department policies need to be revised to match the
     reportable actions required by the NPDB guidelines and included on the
     DD Form 2499. The DOD Instruction needs to clearly define all terms related
     to adverse privileging actions and identify all reportable actions to ensure
     consistent implementation of NPDB processing and reporting by the Military
     Departments.



Timeliness of Reporting Adverse Privileging Actions
     For the 94 provider records reviewed,15 processing time for reporting adverse
     privileging actions varied by Military Department from an average 6.7 to
     10.6 months from the date of final action until the date the report was submitted
     to the NPDB. Untimely reporting occurred because DOD did not require
     reporting within a specified time frame. In addition, the Office of the
     ASD(HA) provided inadequate oversight to ensure the reports were submitted in
     a timely manner.

     Overall Reporting by the Military Departments.       We reviewed a sample of
     94 Army, Navy, and Air Force provider records with adverse privileging
     actions to determine whether reports were sent to the NPDB within a reasonable
     time frame. In addition to the variations discussed previously regarding how
     the Military Departments defined adverse privileging actions, the Military
     Departments also varied in how and when an adverse privileging action was
     considered final. For the Army and the Navy, the final date was after the


     “Appendix A contains details on the sample selection.


                                               27
Finding B. DOD Reporting    of Adverse Privileging   Actions


      appeal was completed, if one was requested. For the Air Force, the final date
      was based on the date of the MTF commander’s decision, prior to completion of
      the appeal process. That difference made it difficult to fairly compare
      timeliness of adverse privileging action reporting among the Military
      Departments.

              Army Processing Tie.      For the 39 Army records reviewed, the Army
      averaged 6.7 months for reporting final reports. Based on the sample records
      involving cases completed in the past 2 years, the Army Medical Command
      improved the timeliness of reportmg adverse privileging actions, with final
      actions reported in an average of slightly more than 4 months.

              Navy Processing Time. For the 30 Navy records reviewed, the Navy
      took an average of 7.8 months from the time of final action to submission of a
      report to the NPDB. That was not consistent with Navy policy, which states
      reports are to be sent within 15 days. However, the Navy showed substantial
      improvement. Based on an analysis of nine adverse privileging actions
      processed from May 1997 through December 1997, the average processing time
      from the date of final action to the date of the report to the NPDB was 1 month.

              Air Force Processing Tie.       For the 25 Air Force records reviewed,
      the average processing time was 10.6 months from final action by the MTF
      commander to the submission of a report to the NPDB. An analysis of nine
      adverse privileging actions completed in 1997 showed slight improvement, with
      an average of 9.2 months from the date of final action by the MTJ? commander
      until a report was sent. However, key dates not obtained for our analysis were
      the dates the appeal process was completed and the Surgeon General made a
      final reporting decision. As a result, for the Air Force analysis, we were unable
      to calculate the average time from the date of final action for reporting purposes
      until the date a report was sent to the NPDB.

      DOD Policy on When to Report.         Only the Navy specified a time frame for
      reporting adverse privileging actions. The Navy policy states that reports will
      be sent within 15 days of the final action. No other DOD policies outline a time
      frame for reporting adverse privileging actions to the NPDB. In the private
      sector, reporting is required within 30 days of taking an adverse privileging
      action. However, even the private sector does not generally report any actions
      taken until the final action is determined, after due process procedures are
      completed. Any DOD standard for reporting to the NPDB should be based on
      the date of final action, after all due process procedures have been completed.
      At the time of a final action, the appropriate Office of the Surgeon General has
      available all information for reporting to the NPDB.

      Oversight. The Office of the ASD(HA) did not ensure adverse privileging
      actions taken against physicians and dentists were reported to the NPDB in a
      timely manner. The reestablishment of the Risk Management Committee of the
      TRICAIE Quality Council should improve oversight by the Office of the
      ASD(HA) for adverse privileging action processing and reporting, as it should
      for malpractice payments. In addition, we believe regular reporting to the
      Office of the ASD(HA) by the Military Departments on adverse privileging
      actions reported to the NPDB will help manage the reporting process and assist
      in identifying problem areas in the future.



                                          28
                       Finding B. DOD Reporting of Adverse Privileging        Actions



Completeness of the NPDB
    Because of the variations in and untimely reporting of adverse privileging
    actions by the Military Departments, the NPDB did not have complete
    information regarding DOD physicians and dentists for healthcare entities
    querying the NPDB. The NPDB is one of the key sources of information used
    by the Military Departments and the private sector when making credentialing
    and privileging decisions. Incomplete data in the NPDB could result in
    healthcare entities making uninformed decisions about a provider.


Recommendations, Management Comments, and Evaluation
Response
    B. We recommend that the Assistant Secretary of Defense (Health Affairs):

           1. Revise policy to:

                  a. Clearly define all terms related to adverse privileging
    actions. At a minimum the policy should delete any reference to limitation
    and clearly define abeyance, denial, reduction, reinstatement, restriction,
    revocation, and suspension, as proposed in Appendix F.

                    b. Require the Surgeons General to report all associated
    adverse privileging actions taken when the final action results in an adverse
    action, consistent with National Practitioner Data Bank (NPDB) reporting.

                     c. Require reporting adverse privileging actions taken
    against providers with alcohol-related impairments who do not self-refer
    into a rehabilitation program, or those who self-refer but do not complete
    the rehabilitation program.

                d. Require reporting within 30 calendar days of the date of
    Surgeon General approval of the adverse privileging action.

                   e. Direct the Surgeons General to provide, at least annually,
    management information outlining the number of adverse privileging
    actions taken, the number reported to the NPDB, the timeliness of the
    reports, any backlog, and any problems with NPDB reporting.

            2. Review the information provided by the Surgeons General
    regarding NPDB reporting and take corrective action to resolve any
    reporting problems and provide assistance in eliminating any backlog.

    Assistant Secretary of Defense (Health Affairs) Comments. The ASD(HA)
    concurred, stating that it will direct the Risk Management Committee to review
    the “Proposed Definitions of Key Terms for Future DOD Policy” outlined in
    this report and come to a consensus on standardizing key terms for describing
    adverse privileging actions. The Assistant Secretary also stated that the Military
    Departments not currently reporting adverse actions taken against providers with
    alcohol-related impairments who do not self refer into rehabilitation will modify
    their policy to comply with the requirement. The ASD(HA) will direct the

                                        29
Finding B. DOD Reporting   of Adverse Privileging   Actions


      Surgeons General to comply with the 30-day reporting policy. In addition, the
      Risk Management Committee will be responsible for monitoring compliance
      with the revised policy and tracking adverse privileging actions.

      Military Department Comments. Although not required to comment, the
      Military Departments agreed with both recommendations.




                                        30
                 Finding C. Completeness                            of DOD
                 Automated Files
                 The DPDB did not contain all records that had been reported to the
                 NPDB. From the merged database used for our sample, 88 of the
                 1,150 (8 percent) malpractice payments and 90 of the 220 (41 percent)
                 adverse privileging actions were in the NPDB but not the DPDB. In
                 addition, when reports were in both data banks, effective and final action
                 dates were incorrect for 50 percent of a sample of records reviewed.
                 The variation in the records reported to the databases and the differences
                 in data within the records occurred because management controls were
                 not adequate to ensure the Military Departments reported complete and
                 accurate information to the DPDB and the NPDB. As a result, AFIP did
                 not have a complete, accurate, automated database for conducting
                 analysis related to clinical and malpractice issues.



Data for Analysis
     Our analysis of the completeness of the automated files was based on merged
     records used to provide a universe of records for sample selection.‘6 To develop
     a sampling database, we combined the records from the DPDB with those in the
     NPDB, matching records as much as possible to eliminate duplication. Merging
     the two databases and eliminating duplicates resulted in 1,150 malpractice
     payments and 220 adverse privileging actions reports.” Of the
     1,150 malpractice payments records, 219 were Army, 216 were Navy, and
     715 were Air Force. Of the 220 adverse privileging action records, 91 were
     Army, 55 were Navy, and 74 were Air Force.

     Our analysis of the accuracy of the automated files was based on the samples
     selected for the evaluation. We reviewed 47 Army, 30 Nav , and 47 Air Force
     malpractice payment records and 39 Army, 30 Navy, and 2J Air Force adverse
     privileging actions to identify those records in both databases. From those
     records, we identified 10 Army, 2 Navy, and 13 Air Force malpractice payment
     records and 14 Army, 5 Navy, and 15 Air Force adverse privileging actions in
     both data banks. Table 4 summarizes the number of records reviewed for
     accuracy by type of report and Military Department.




    16Additional records from the Army and the Air Force were used in the sample selection, but
    were not used in the comparison of the DPDB and the NPDB.

     “Appendix     A contains   details on the sample selection.



                                                     31
Finding C. Completeness of DOD Automated F’iles




Automated Systems
      National Practitioner Data Bank. Military Department reports are sent to the
      NPDB through the Query for Practitioners (QPRAC). QPRAC is the software
      provided by the NPDB that allows eligible healthcare entities to electronically
      query and report issues related to healthcare practitioners.

      Subsystems of the Defense Practitioner Data Bank. DOD collection of
      adverse privileging actions began in 1982 through the subsystem of the DPDB
      called CLIN2. Collection of data regarding malpractice payments began in
      1988 through the subsystem of the DPDB called TORT2. The Military
      Departments’ offices of the Surgeons General enter the data into the two
      subsystems.

      Dual Entry Required. The Military Departments have to separately enter data
      into the DPDB and the NPDB. DOD intended to include in the DPDB reporting
      system the capability to extract data for reports to the NPDB, eliminating the
      need for dual entry. However, the implemented system lacked that feature. It
      could not produce either the hard copy NPDB reports or the automated records
      required for NPDB reporting through QPRAC. In the future, CLIN2 and
      TORT2 will no longer be required; data for both the DPDB and the NPDB will
      be collected through CCQAS Version 2.0, thus eliminating the need for dual
      entry.

      Centralized Credentials Quality Assurance System. CCQAS is a
      world-wide, t&Service credentialing information system designed to assist MTF
      staff in collecting, tracking, and reporting required provider data for
      credentialing. It tracks and stores mformation on provider adverse privileging
      actions, affiliations, certifications, demographics, education, licenses,
      malpractice, and medical readiness training. CCQAS Version 2.0 adds the
      CLIN2 and TORT2 databases to the system. Data entered into CCQAS

                                         32
                               Fmding C. Completeness of DOD Automated Files


    Version 2.0 will be sufficient to automatically generate NPDB reports for both
    malpractice payments and adverse privileging actions. The reports will
    originate in CCQAS but will be automatically transferred to QPRAC, where
    they will be completed and sent to the NPDB. According to Office of the
    ASD(I-IA) staff, CCQAS is scheduled to be deployed worldwide by
    September 30, 1998.

    CCQAS and Year 2000 Compliance. CCQAS Version 2.0 appears to comply
    with Year 2000 requirements. All date fields in CCQAS Version 2.0 are four-
    digit years, all data will be entered manually, and there will not be any
    automated input sources to the system. Because CCQAS Version 2.0 is
    scheduled to be implemented prior to March 1999, the implementation deadline
    set by the U.S. Office of Management and Budget for system conversions and
    implementations, we did not evaluate the legacy systems, CLIN2 and TORT2,
    for Year 2000 compliance.



Completeness and Accuracy of the DPDB
    Completeness of the DPDB. The DPDB did not have complete information.
    For malpractice payments, 88 of the 1,150 merged records (8 percent), were
    reported only to the NPDB and were not in the DPDB. The 88 records should
    also have been reported to the DPDB. Of the 1,150 records, 192 were reported
    to the DPDB and the NPDB. For adverse privileging actions, 90 of the
    220 total merged records (about 41 percent) were reported only to the NPDB.
    Again, the 90 records should also have been reported to the DPDB. Of the
    220 records, 74 were reported to the DPDB and the NPDB. Appendix G
    provides details comparing the two databases by Military Department and DOD
    total.

    Accuracy of the DPDB. Although the information reported for malpractice
    payments did not appear to have inconsistencies, the information on adverse
    privileging actions did, including different names on two Army records and, for
    many records, differences in effective and final action dates, as well as
    differences in the action codes reported. Some records were different in only
    one area, but there were records where both the dates and the action codes were
    different.

            Effective and Fiial Action Dates. Half of the 34 adverse privileging
    action records we reviewed that were in both the DPDB and the NPDB had
    different effective or final action dates. Of the 14 Army adverse privileging
    action records, 9 had different dates. Of the 5 Navy records, 2 had different
    dates. Of the 15 Air Force records, 6 had different dates.

           Action Codes. For 3 of the 14 Army, 2 of the 5 Navy, and 5 of the
    15 Air Force records from our sample, the adverse privileging action code in
    the DPDB was different from the code in the NPDB. Therefore, about
    29 percent of the sample records found in both databases had different action
    code information.




                                       33
Finding C. Completeness       of DOD Automated Files


      Differences Should Not Occur in the Future. With the implementation of
      CCQAS Version 2.0, dual entry will not be required. Therefore, problems
      associated with incomplete or differing data between the two databases should
      not occur once CCQAS Version 2.0 is in use.



Management Controls
      Although DOD policy requires the Military Departments to provide AFIP with
      the information used to complete malpractice payment and adverse privileging
      action reports, the offices of the Surgeons General did not have adequate
      management controls to ensure the required reporting occurred. The
      requirement to report all malpractice payments and adverse privileging actions
      to the DPDB was in addition to the requirement to submit selected reports to the
      NPDB.

      The lack of management controls to ensure full reporting was evident in an
      analysis done by AFIP in 1995. For each Military Department, AFIP compared
      malpractice payment data contained in TORT2 to closed malpractice claims *
      from the Military Department JAGS. The comparison information was provided
      to the Military Department Deputy Surgeons General on October 4, 1995.
      While AFIP expected about 450 malpractice payment records each year, in
      1994 they only received 8 1 Army, no Navy, and 12 Air Force records. In
      1995, AFIP received 102 Army records, but none from either the Navy or the
      Air Force. Each of the Military Departments responded to the AFIP analysis
      with either explanations or areas of improvement that would help resolve the
      problems. Two Military Departments recommended a tri-Service meeting. But
      inaccurate reporting has continued, as evidenced by the number of reports still
      found only in the NPDB.



Information Needed for Analysis
      The analysis of data from the DPDB is used to highlight clinical areas for
      potential risks, to educate practitioners about past mistakes, and to identify areas
      of clinical practice with the greatest exposure to error. Evaluation of
      malpractice and adverse action trends is an integral part of the Office of the
      ASD(HA) risk management program for measuring performance improvement.
      Although CCQAS will eliminate the problem in the future, differences in the
      current databases need to be reconciled to ensure AFIP has complete and
      accurate data with which to conduct those risk management and trending
      analyses. Incorrect information, such as incorrect effective dates of actions
      taken or incorrect adverse privileging action codes, impacts the ability to do
      trending analyses over periods of time. Incomplete automated information
      compromises the usefulness of the reports produced by AFIP for the ASD(HA).
      Therefore, until CCQAS Version 2.0 is fully implemented, the offices of the
      Surgeons General need to implement management controls to ensure that all
      reports submitted to the NPDB are also submitted to the DPDB.


      ‘*Closed claims from the JAGS can include both malpractice   payments   and denials.


                                                34
                                Finding C. Completeness of DOD Automated Files


Recommendations,         Management          Comments,        and Evaluation
Response
     C. We recommend that the Surgeons General of the Military Departments:

             1. Reconcile the Defense Practitioner Data Bank (DPDB) and
     National Practitioner Data Bank (NPDB) databases by submitting to the
     DPDB all records found only in the NPDB and correcting the
     inconsistencies in the data.

     Department of the Army Comments. The Army concurred.

     Department of the Navy Comments. The Navy concurred, stating it has
     contracted with a private sector company to eliminate its backlog. It also stated
     that management controls were already in place.

    Department of the Air Force Comments. The Air Force concurred, stating it
    plans to hire a full-time database manager to be responsible for malpractice and
    adverse action databases. The individual will be tasked with reconciling the
    databases. The estimated date for hiring the database manager was
    June 15, 1998.

    Assistant Secretary of Defense (Health Affairs) Comments. Although not
    required to comment, the ASD(HA) agreed with the recommendation.

    Evaluation Response. The Air Force comments were responsive. The Army
    and the Navy comments were partially responsive. The Army did not provide
    an implementation plan or estimated dates for reconciling the databases. The
    Navy discussed its method for reducing backlog, but did not address its plan for
    reconciling the databases. We request that the Army and the Navy provide
    implementation plans for reconciling the DPDB and the NPDB and the
    estimated completion dates in response to the final report.

    C. We recommend that the Surgeons General of the Military Departments:

            2. Implement procedures so that reports are submitted to the DPDB
    at the same time as data is submitted to the NPDB until the Centralized
    Credentials Quality Assurance System Version 2.0 is fully implemented.

    Department of the Army Comments. The Army concurred.

    Department of the Navy Comments. The Navy concurred, stating that
    management controls were already in place.

    Department of the Air Force Comments. The Air Force concurred, stating it
    plans to hire a full-time database manager to be responsible for malpractice and
    adverse action databases. The individual will be tasked with submitting
    quarterly data reports to AFIP. The estimated date for hiring the database
    manager was June 15, 1998.

    Assistant Secretary of Defense (Health Affairs) Comments. Although not
    required to comment, the ASD(HA) agreed with the recommendation.



                                        35
Finding C. Completeness of DOD Automated Files


      Evaluation Response. The Air Force comments were responsive. The Army
      and the Navy comments were partially responsive. The Army did not provide
      an implementation plan or estimated completion dates for ensuring reports are
      submitted to both the NPDB and the DPDB. The Navy did not explain how
      existing controls will resolve the DPDB reporting issues identified in the report.
      We request that the Army and the Navy provide implementation plans and the
      estimated completion dates for ensuring reports are sent to both the NPDB and
      the DPDB in response to the final report.




                                          36
Part II - Additional Information
Appendix A. Evaluation Process


Scope
    Work Performed. The evaluation focused on the programs, policies,
    procedures, and practices used by the Office of the ASDQIA) and the Military
    Departments for identifying, processing, and reporting malpractice payments
    and adverse privileging actions in accordance with the DOD Directives and
    Instruction. We focused on the implementation of the program for licensed and
    privileged healthcare personnel in MTFs, whether they were on active duty, in
    the Reserves, employed as a civilian in the MTF, or under contract with the
    MTF.

    Limitations to Evaluation Scope. We did not       include providers under a
    TRICARE contract who were not privileged by       the MTF. In addition, although
    querying the NPDB is outlined in DOD policies     as part of the total process, it is
    separate from reporting and, therefore, was not   included in our evaluation.

    DOD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the DOD
    has established 6 DOD-wide corporate level performance objectives and 14 goals
    for meeting those objectives. This report pertains to achievement of the
    following objective and goal.

           Objective: Maintain highly ready joint forces to perform the full
           spectrum of military activities. Goal: Maintain highly ready joint
           forces to perform the full spectrum of military activities by improving
           force management procedures throughout DOD. (DOD-5.3)

    DOD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to the achievement of the following functional area objective and
    goal.

           Health Care Functional Area. Objective: Exercise strategic
           leadership of the Military Health System. Goal: Use a strategic,
           systematic approach to overall management of the Military Health
           System, incorporating performance measures, customer involvement,
           feedback, and corrective action. (MHS-2.2)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in DOD. This report provides coverage of
    the Defense Infrastructure high risk area.




                                       38
                                                  Appendix    A. Evaluation   Process



Methodology
     We reviewed DHHS laws and regulations, the memorandum of understanding
     between DHHS and DOD, and DOD and Military Department directives,
     instructions, regulations, and other published reports pertaining to NPDB
     reporting, dated from November 1986 through July 1996. We interviewed key
     personnel within DOD who were involved in the oversight and processing of
     malpractice payments and adverse privileging actions. In addition, we
     interviewed key personnel from DHHS and the Department of Justice
     concerning their roles in supporting NPDB reporting by the DOD.

     We reviewed malpractice payments and adverse privileging action cases that
     occurred from September 1, 1990, through October 15, 1997. Six samples
     were selected by the Quantitative Analysis Division; Analysis, Planning, and
     Technical Support Directorate; Office of the Inspector General, DOD. The
     samples were used to identify problems and successes regarding identifying,
     tracking, and reporting malpractice payments and adverse privileging actions.
     We did not question the determinations made by the Military Departments as to
     whether the standard of care was met or not, or whether there was a system
     error. In addition to the samples, we looked at nine malpractice payments
     completed from October 1996 through December 1997 for the Air Force, nine
     adverse privileging action cases closed by the Navy from May through
     December 1997, and nine adverse privileging action cases closed by the Air
     Force from January through December 1997 to determine the impact of recent
     procedural changes by the Navy and the Air Force.

     Use of Computer-Processed     Data. To achieve the evaluation objectives, we
     relied on computer-processed data contained in the DPDB, the NPDB, and the
     Army database, Medical Quality Assurance System. Although we did not test
     the general and application controls of the DPDB, the NPDB, and the Medical
     Quality Assurance System, we did validate the sample data produced by those
     systems, which revealed inaccuracies in the data (Finding C). However, when
     the data are reviewed in context with other available evidence, we believe that
     the opinions, conclusions, and recommendations in this report are valid.

     Sample Selection Methodology.       Six samples were used for the evaluation.
     A separate sample was provided for malpractice payments made and adverse
     privileging actions taken for each of the Military Departments. The samples
     were drawn from three automated files: the DPDB, maintained by AFIP; the
     NPDB, maintained by DHHS; and the Medical Quality Assurance System,
     maintained by the Army. In addition, the files were supplemented with internal
     tracking information provided by the Office of the Air Force Surgeon General,
     and combined to develop two databases from which the samples were drawn.

     There were substantial problems with the databases. Names were entered
     inconsistently and dates and action codes differed between the DPDB and the
     NPDB files, In addition, there were duplicate records. Because of the
     inconsistencies in data across systems, it was not always possible to determine




                                         39
Appendix A. Evaluation        Process


      whether reports in different systems were the same or not. We manually
      reviewed the data files and determined when only one action was taken even
      though the names, award amounts, effective dates, or final dates reported in the
      DPDB and NPDB records differed.

      The samples were based on records meeting the following criteria:

              o effective dates of malpractice payments and adverse privileging
      actions from September 1, 1990, through October 15, 1997;

              o status action codes indicating the case was completed; and

             0 for malpractice payments, the payment amount was greater than zero;
      for adverse actions, the case involved a physician.
               Malpractice Payments. To develop a database for sampling
      malpractice payments, we restructured the DPDB to include on1 one
      practitioner name per record. For example, if the record identi Jled two
      practitioners, two records were created. This allowed matching with records in
      the NPDB, which name only one practitioner per record. A match was
      performed based on the date of the incident, practitioner name, and settlement
      amount. Any records that did not specifically identify a name or adjudication
      number were deleted because they could not be traced to a specific malpractice
      payment. Finally, we reviewed the complete list and identified duplicates. The
      result was 1,933 total records, merging into 1,291’ clearly identifiable records
      (299 Army, 216 Navy, and 776 Air Force). The sample for each Military
      Department was drawn using simple random sample selection methodology.
      The resultant samples included 53 Army, 46 Navy, and 59 Air Force unique
      malpractice payments.

      Of the 53 Army records in the sample, 2 were not found and 4 were not
      applicable, resulting in 47 records for analysis. Of the 46 Navy records
      included in the sample, 1 was not identifiable, 11 were not found or had been
      destroyed,’ and 4 were still pending decisions. Therefore, 30 Navy records
      were used in our analysis. Of the 59 Air Force records, 12 could not be found,
      leaving 47 for review.

              Adverse Privileging Actions. We developed a database for sampling
      adverse privileging actions by matching the provider name, type of action taken,
      and effective date of the action. Additionally, we reviewed the complete list
      after the merge was completed and identified duplicates, combining records
      found in multiple sources. The result was 390 total records, merging into
      223’ clearly identifiable provider records (94 Army, 55 Navy, and 74 Air
      Force). The sample for each Military Department was drawn using simple

      ‘That number includes 80 records found only in the Army files and 61 records found only in the
      Air Force files. Removing those records leaves 1,150 records that were in the DPDB and
      NPDB.
      %INe avy dtes roys claim files after 2 years if no practitioner assctciated with the claim was
      reported to the NPDB.
      ‘Of the 223 records, 3 were found only in Army files, leaving 220 records that were in the
      DPDB and NPDB.



                                                  40
                                                  Appendix A. Evaluation     Process


    random sample selection methodology. The resultant samples included
    40 Army, 31 Navy, and 36 Air Force provider records. In the Army, one
    provider had two reports. In the Air Force, one record was not available for
    review. As a result, 41 Army, 31 Navy, and 35 Air Force provider records
    were available for review. However, of the 41 Army provider records initially
    reviewed, 2 were not applicable, leaving 39 for analysis. Of the 31 Navy
    provider records initially reviewed, 1 was not applicable, leaving 30 for
    analysis. For the Air Force, 10 provider records were not applicable, leaving
    25 for analysis.

             Limitations to Analysis. Although dentists were included in adverse
    privileging action reporting, none were sampled because of the inability to
    clearly identify them in the various databases. Because of the inconsistencies
    found in the various databases and the fact that many records were found only
    in the NPDB, neither the DPDB nor the NPDB can be taken as the “true”
    population. Because there was no clearly defined universe on which to project
    the sample results, no projections were made. Instead, review of the samples
    was the basis for our analysis. Despite the limitations, the sampling
    methodology demonstrated the sample selection was not biased.

    Evaluation   Type, Dates, and Standards. We performed this program
    evaluation from October 1996 through January 1997, and September 1997
    through February 1998, in accordance with standards implemented by the
    Inspector General, DOD. We included tests of management controls considered
    necessary.

    Contacts During the Evaluation.      We visited or contacted individuals and
    organizations from the offices of the ASDQIA), Military Departments’
    Surgeons General, and Military Departments’ JAGS within DOD. We also
    visited or contacted individuals from the offices of DHHS, Department of
    Justice, and the civilian community. Further details are available upon request.



Management       Control Program
    DOD Directive 5010.38, OManagement Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over the DOD implementation of the NPDB
    guidelines in the offices of the ASD(HA) and the Surgeons General.
    Specifically, we reviewed management controls over reporting malpractice
    payments and adverse privileging actions in a complete and timely manner.
    We also reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the offices of the ASD(HA) and Surgeons General as
    defined by DOD Directive 5010.38. In the offices of the Surgeons General,
    management controls for NPDB reporting were not adequate to ensure that
    malpractice payments and adverse privileging actions were reported to the


                                       41
Appendix A. Evaluation Process


      DPDB and the NPDB completely and in a timely manner. In addition, the
      Office of the ASD(HA) did not provide adequate oversight of the program.
      Recommendations A.l., A.2., A.3.b., B.l., B.2., Cl., and C.2., will
      improve reporting. A copy of the report will be provided to the senior official
      responsible for management controls in the offices of the ASD(HA) and
      Surgeons General.

      Adequacy of Management’s Self-Evaluation. Management at the Office of
      the ASD(I-IA) and the Military Departments did not identify implementation of
      NPDB reporting as an assessable unit and, therefore, did not identify or report
      any related management control weaknesses.



Summary of Prior Coverage
      There were no related DOD reports in the last 5 years; however, the DHHS
      Inspector General and the Public Health Service issued related reports. The
      DHHS Inspector General report is summarized below and the Public Health
      Service report is discussed on page 14.

      DHHS Office of the Inspector General Report No. OEI-01-94-00050,
      “Hospital Reporting to the National Practitioner Data Bank,” February
      1995. The report states that there were large variations in NPDB reporting
      from State to State and that about 75 percent of all hospitals in the United States
      had never reported an adverse privileging action. The report recommended that
      the Public Health Service further inquire through the DHHS Health Resources
      Services Administration to get a better understanding of factors affecting
      hospital reporting, set up a conference to focus on issues influencing reporting,
      and work with the Health Care Financing Administration to ensure that the Joint
      Commission on Accreditation of Healthcare Organizations assesses more fully
      hospitals’ compliance with NPDB law.




                                          42
Appendix B. Other Matters of Interest

   Draft DOD Directive 6025.14.     On January 22, 1998, the ASD(HA) requested
    comments on a draft revision of DOD Directive 6025.34. On March 11, 1998,
    the Inspector General, DOD, nonconcurred with the draft policy. Key reasons
    for the nonconcurrence were as follows.
         o The Directive does not provide time frames for reporting malpractice
   payments or adverse privileging actions.

           o The Directive continues a policy that results in limited reporting of
    malpractice payments by the Military Departments.

            o The Directive does not provide clear definitions of reportable adverse
   privileging actions, and it is not consistent with the reportable actions required
   by the NPDB.

          o The Directive does not include sufficient oversight by the Office of
   the ASD(HA) to ensure consistent application of reporting malpractice payments
   and adverse privileging actions.

   The revised Directive will consolidate DOD Directive 6025.14 and DOD
   Instruction 6025.15, canceling the Instruction. Because the Instruction provides
   most of the implementing guidance, it is critical that the revised DOD Directive
   contain as much detail as possible to ensure accurate, consistent, and timely
   reporting to the NPDB. The proposed revision does not contain sufficient
   detail.




                                       43
Appendix C. Malpractice Payment Policies
and Procedures


Policies
     Army Policy. Army policy for reporting malpractice payments to the NPDB is
     outlined in Army Regulation 40-68. Since DOD policy was not finalized until
     November 1990, after the Regulation was published, details concerning the
     processing of malpractice payments were included in Interim Change 103.
     Change IO3 states that the Surgeon General will send reports to the NPDB when
     standard of care is not met and a specific practitioner is identified as having not
     met the standard of care. If the healthcare practitioner is not licensed or the
     malpractice payment is attributable to a system or management problem, that is,
     outside the control of the healthcare practitioner, a report is not sent to the
     NPDB. Although there are time frames for elements of malpractice payment
     processing prior to reporting to the NPDB, there are no specific time frames for
     submitting reports to the NPDB.

     Navy Policy. The primary Navy policy for reporting malpractice payments is
     BUMED Instruction 6010.18. It states that reports are sent by the Surgeon
     General to the NPDB if two conditions occur. First, monetary payment must be
     made in response to a claim, either as a settlement or court action. Second, the
     healthcare practitioner or trainee must have been responsible for an act or
     omission that was the cause (or a major contributing cause) of harm that
     resulted in the malpractice payment. The policy does not include any time
     frames for reporting malpractice payments to the NPDB.

     Air Force Policy. Air Force policy for reporting malpractice payments is
     outlined in Air Force Instruction 44-l 19. The Air Force policy states that
     reports “are made to the NPDB in cases of malpractice claim payment
     according to the guidelines specified in DODD [sic] 6025.15. - Therefore,
     reports are sent by the Surgeon General only if standard of care is not met for a
     specific practitioner. The policy does not include any time frame standard for
     reporting.



Procedures
     Army Procedures. After a claim is filed, the process begins with the
     base-level JAG, who is responsible for initiating a DD Form 2526, ‘Case
     Abstract for Malpractice Claims.” The form is then forwarded to the MTF risk
     manager, who is responsible for completing any missing information and
     forwarding the information through the Regional Medical Command to the
     Army Medical Command. A standard of care determination is made at the
     MTF. The Army Claims Service contacts the Consultant Case Review Branch




                                         44
                   Appendix C. Malpractice   Payment Policies and Procedures


for another standard of care determination. No further action is taken at the
MTF until notification that the claim is settled or denied. The MTF forwards
the final payment information to the Army Medical Command through the
Regional Medical Command.

The Army Medical Command requires a completed DD Form 2526; the
standard of care determinations by the MTF and the Consultant Case Review
Branch; and information from the Army Claims Service that the claim is closed.
If a malpractice payment is made, supporting documentation concerning the
payment is provided by the Army Claims Service to the Army Medical
Command. For lawsuits involving the Litigations Branch within the Army JAG
and the Department of Justice, the process is similar. Once the claim is closed,
if a malpractice payment is made, documentation supporting the payment is sent
by the Litigations Branch or U.S. Attorneys to the Army Medical Command.

After all the information is received at the Army Medical Command, a final
decision regarding reporting to the NPDB is made. If each review panel
determines that the standard of care was met, then no report is sent to the
NPDB. If there is a difference in opinion between the MTF and Consultant
Case Review Branch, the Surgeon General convenes another panel for a final
standard of care determination. A report is sent to the NPDB only when the
Surgeon General makes a final determination that there was a breach in the
standard of care and that the breach was caused by a specific practitioner. All
final information is entered into the appropriate automated systems.

Navy Procedures.    The Navy malpractice process begins when a potentially
compensatory event is investigated for potential claims and litigations. This
could occur before any claim is filed. The information is provided to BUMED,
which summarizes the investigation for potential risk management and quality
assurance action and determines whether the MTF staff took all necessary
corrective actions. Prior to October 1997, BUMED obtained a specialty
review; after October 1997, that responsibility was delegated to the MTF.

When a claim is filed, the MTF staff works on the investigation with the Navy
Legal Services Office, within the Navy JAG. The MTF makes a standard of
care determination and forwards that information to the legal staff. The JAG
handles the claim and BUMED receives a courtesy copy of the reviews
supporting the claim. BUMED waits to be notified by the JAG, including
Department of Justice cases, that the claim is settled or denied.

After notification of the malpractice payment, the risk management office
within BUMED reviews the claim and determines if reviews indicate the
standard of care was met. If the standard of care was met, no reports are sent
to the NPDB, appropriate files are updated, and the claim is closed. If the
standard of care was not met, BUMED determines which practitioners were
associated with the claim and identifies those who might be reported to the
NPDB. The practitioners are notified for their input for consideration by the
Professional Case Review Panel (the Panel).

All paid claims are reviewed by the Panel. A package is prepared for the Panel
that includes all review decisions, the legal documents, and any input from the
practitioner associated with the claim. The Panel is permanent and convenes
monthly. It is tasked with offering recommendations to the Surgeon General on


                                    45
Appendix C. Malpractice    Payment Policies and Procedures


      whether or not to report a practitioner to the NPDB. If the recommendation is
      not to report, then BUMED sends a letter to the practitioner that his or her
      name will not be reported to the NPDB. If the recommendation is to report,
      then that recommendation goes to the Surgeon General. The final decision for
      reporting to the NPDB resides with the Surgeon General. When the Surgeon
      General approves reporting to the NPDB, a report is sent and the appropriate
      automated files are updated.

      Air Force Procedures. The malpractice process in the Air Force begins when
      a potentially compensable event occurs at the MTF. When such an event
      occurs, MTF staff initiate a quality assurance review of the care provided,
      during which the risk manager identifies all practitioners associated with the
      event and obtains written statements from them.

      The claim process begins when the Standard Form 95, “Claims for Damages,
      Injury_, or Death, Wis sent to the base claims officer, who is responsible for
      investigating the claim. During the investigation, the base claims officer obtains
      a copy of the medical records and quality assurance review from the risk
      manager, identifies the practitioner(s) associated with the claim and other
      witnesses that could provide information about the incident, interviews the
      witnesses, documents the interviews, and prepares a review of the applicable
      law. A memorandum that describes the claim, with supporting documentation,
      is then sent to an Air Force regional medical law consultant.

      The medical law consultant continues the development of the case file by having
      specialty reviewers review the claim and provide a written summary of fact,
      including a standard of care determination. All memorandums and supporting
      documentation are forwarded to the appropriate legal and medical offices. The
      Office of the Surgeon General reviews the file. If the standard of care
      determination indicated that it was met and the legal office reported that the
      claim is closed (payment or denial), the file is closed, the appropriate systems
      are updated, and no report is sent to the NPDB.

      If, however, the standard of care determination was not met, the MTF
      commander is responsible for notifying the practitioners of that decision and
      their right to appeal the determination. If practitioners appeal, a Surgeon
      General medical consultant reviews the claim and makes another standard of
      care determination. The Medical Practice Review Board, the recommending
      body to the Surgeon General, reviews the entire claim, makes a final standard
      of care determination, and provides the Surgeon General with a
      recommendation about reporting the practitioner to the NPDB. The final
      decision for reporting to the NPDB is made by the Surgeon General. This
      could occur prior to any malpractice payment. When the Surgeon General is
      notified that the claim was paid by the JAG or the Department of Justice
      through the JAG, NPDB reporting is completed, if authorized.




                                           46
Appendix D. Laws Applicable to DOD for
Malpractice Claims

   Following are summaries of the three Federal laws and the Supreme Court
   decision that define the policies for submitting malpractice claims to the DOD.

   Federal Tort Claims Act. The Federal Tort Claims Act, August 2, 1946, is
   the basic law prescribing the policies and procedures for submitting a monetary
   claim against the U.S. Government for personal injury or death caused by the
   negligence or wrongful act of an employee of the U.S. Government. Medical
   malpractice claims are included under the Act. The Act excludes any claim
   arismg in a foreign country. As a result, claims are limited to injuries or deaths
   that occurred in the 50 states? the District of Columbia, or U.S. territories. The
   Act does not include any limit on the dollar amount of a claim. If the claim is
   not settled within 6 months after tiling, the claimant has the right to sue the
   U.S. Government in Federal Court.

   Gonzales Act. The Gonzales Act, also called the Medical Malpractice
   Immunity Act, October 8, 1976, states that military healthcare practitioners are
   protected from malpractice liability while acting within the scope of their
   responsibility. Thus, a military healthcare practitioner cannot be sued directly
   for malpractice. Individuals injured in an MTF would file a claim against the
   U.S. Government under the Federal Tort Claims Act or the Military Claims
   Act.

   Military Claims Act. The Military Claims Act, August 10, 1956, allows
   individuals to file malpractice claims for injuries or deaths caused by civilian
   employees or military members when the incident is not covered by the Federal
   Tort Claims Act. Therefore, any claims arising from personal injury or death in
   a foreign country are filed under the Military Claims Act. The Military Claims
   Act allows claims to be filed within 2 years of injury or death. Claim payments
   normally do not exceed $100,000. Individuals may file only malpractice
   claims, not lawsuits, under the Military Claims Act.

   Feres Doctrine. The Feres Doctrine resulted from a December 4, 1950,
   Supreme Court decision that the Government was not liable under the Federal
   Tort Claims Act for injuries to Service members arising out of an activity
   incident to military service. As a result, Service members are prohibited from
   filing a malpractice claim or suing the U.S. Government. The Doctrine does
   not apply to their dependents, retired Service members, or other civilians
   receiving treatment in MTFs.




                                      47
Appendix E. Adverse Privileging Action Policies
and Procedures


Policies
     Army Policy. Army Regulation 40-68 addresses the requirement to report
     adverse privileging actions to the NPDB, but it does not contain explicit
     procedures because the policy was issued prior to the implementation of the
     NPDB. Detailed procedures are included in Interim Change 103. Reportable
     privileging actions include denials, restrictions, revocations, and suspensions of
     privileges. The policy states that any closed adverse privileging action longer
     than 30 days in duration will be reported to the NPDB. It does not identify a
     time frame in which the report must be sent. The automatic suspension of
     privileges for providers enrolled in rehabilitation for substance abuse are not
     reported unless they fail to satisfactorily complete the program, or the adverse
     privileging action was taken for incompetence, endangerment, or unprofessional
     conduct.

     Navy Policy. BUMED Instruction 6010.18, and BUMED Instruction 6320.67,
     uAdverse Privileging Actions, Peer Review Panel Procedures, and Healthcare
     Provider Reporting, D April 23, 1990, are the primary policies for reporting
     adverse privileging actions to the NPDB. Navy policy includes denials,
     limitations, and revocations of clinical privileges as possible reportable adverse
     privileging actions. It does not state that the adverse privileging action has to
     exceed 30 days to be reportable. BUMED policy, which is to report adverse
     privileging actions on all privileged providers, exceeds DHHS policy which
     requires reports on only physicians and dentists. Navy policy states that a
     report will be sent to the NPDB within 15 days of completion of the appeal
     procedures or notification that the provider will not appeal the final action. The
     policy does not differentiate between adverse privileging actions related to
     substance abuse and other privileging actions.

     Air Force Policy. Air Force Instruction 44-l 19 is the primary policy for
     adverse privileging action reporting. The policy states that after a final decision
     is made, national and State regulatory agencies, including the NPDB, are to be
     notified of reportable actions. Reportable privileging actions include denials,
     limitations, and revocations of privileges. The policy does not identify time
     frames for which the privileging action must occur or time frames in which
     reports are to be sent. The policy states that a DD Form 2499 will be generated
     when a provider enters a substance abuse program, regardless of whether or not
     an adverse privileging action occurred. The completion of the form is separate
     from NPDB reporting.




                                          48
                   Appendix      E. Adverse Privileging    Action Policies and Procedures


Procedures
     Army Procedures. If a questionable action occurs regarding a provider’s
     ability to provide patient care, the provider’s privileges are put in abeyance.’
     While in abeyance, three actions occur. First, the provider is notified in writing
     of the action and signs a receipt acknowledging the notification. Second, a
     DD Form 2499 is prepared at the MTF and sent through the Regional Medical
     Command to the Army Medical Command. Last, an investigation is initiated to
     collect information about the questionable action. Abeyance can last up to
     28 days. If the investigation reveals that cause did not exist to take an adverse
     privileging action, the case is closed. If further investigation is needed and the
     action extends beyond 28 days, the MTF credentials committee makes a
     decision as to the action necessary.

     If the credentials committee believes that cause exists, and either (1) immediate
     action is needed to protect the safety of patients, employees, or others in the
     MTF or (21 the provider is involved in gross negligence, then a summary
     suspension is taken. If cause exists, but neither of the two situations apply,
     then the credentials committee can recommend either limitation, restriction, or
     revocation of privileges. The provider is notified in writing of the action and
     given 10 days to request a hearing. If no hearing is requested, then the action is
     deemed final for reporting purposes and is reported through the Regional
     Medical Command to the Army Medical Command, which is responsible for
     reporting to the NPDB.

     If the provider requests a hearing, all information is presented and the
     credentials committee makes a recommendation to the MTF commander. If no
     action is taken, the case is closed and a closeout DD Form 2499 is completed
     and sent to the Army Medical Command through the Regional Medical
     Command. If action is taken, the provider has the right to appeal the decision
     through the Regional Medical Command to the Army Medical Command. If no
     appeal is requested, the action is deemed final for reporting purposes and the
     information is sent through the Regional Medical Command to the Army
     Medical Command, which submits a report to the NPDB. If the provider
     appeals the decision, a panel of three providers, including one in the same
     specialty, reviews the documentation. If the decision is to restrict, revoke, or
     suspend clinical privileges after all due process procedures are completed, the
     case is deemed final and the provider is reported to the NPDB. Due process
     procedures, including the right to a hearing and appeal, also apply to providers
     denied privileges at an MTF.

     Navy Procedures. If a questionable action occurs, privileges are initially
     placed in abeyance. The MTF commander could, however, take whatever
     action is necessary to ensure patient safety. The purpose of abeyance is to
     provide time to conduct an investigation and gather additional information to




     ‘See Appendix F for a definition.
     ‘A summary suspension of privileges is also known as a summary action of suspension. See
     Appendix F for a definition.


                                             49
Appendix   E. Adverse Privileging        Action Policies and Procedures


      make a more definitive decision. Abeyance is for a maximum of 28 days, after
      which time the commander makes a decision to reinstate or suspend the
      provider’s privileges. If the privileges are reinstated, no further action is taken
      and the case is closed.

      If a provider’s privileges are suspended, the action is reviewed by an MTF Peer
      Review Panel (the Review Panel). The Review Panel is composed of providers
      from the MTF appointed by the commander. The responsibility of the Review
      Panel is to review the provider’s conduct or clinical practice and make a
      recommendation to the commander regarding the provider’s privileges. The
      Review Panel will make a recommendation that the provider’s privileges be
      denied, limited, reinstated, or revoked. Generally the commander accepts the
      recommendation of the Review Panel, but he or she is not bound by its
      recommendation and could render a different decision. When the commander
      makes a decision, the provider is notified in writing of the decision, the reasons
      for the decision, and the provider’s right to appeal any adverse privileging
      action decision. If the decision is to reinstate, no further action is taken and the
      case is closed. For an adverse privileging action, a notification is sent to the
      provider that outlines the procedures and time frames for an appeal. If the
      provider chooses not to appeal the decision, the case is deemed final and the
      appropriate documents are forwarded to BUMED. Any reportable adverse
      privileging actions taken are reported to the NPDB by BUMED.

      If the provider chooses to appeal the MTF commander’s decision, the appeal is
      submitted to BUMED. An attorney at BUMED prepares an executive brief that
      summarizes the case. The executive brief is forwarded to Chief of the
      provider’s Corps3 for comment, who then forwards it to the Surgeon General.
      The Surgeon General reviews the provider’s appeal, the executive brief, and the
      Corps Chiefs comments, and either grants or denies the appeal. The provider
      is notified by letter of the Surgeon General’s decision regarding the appeal.

      The case is final for reporting purposes after completion of the appeal process.
      In most cases, if the final decision is a reportable adverse privileging action,
      BUMED reports the action to the NPDB. Although reportable according to
      NPDB guidelines, suspensions are not reported by the Navy. The Navy
      considers suspensions temporary actions and therefore only reports denials,
      limitations, reinstatements, or revocations of provider privileges. The exception
      is when a provider separates while privileges are suspended. In that case,
      BUMED submits a report to the NPDB, as appropriate.

      Air Force Procedures. If a questionable action occurs regarding a provider’s
      ability to provide patient care, the MTF credentials committee performs a
      review of the provider’s performance and makes a recommendation to the MTF
      commander to either conduct an investigation to obtain additional information or
      take an adverse privileging action.

      If an investigation is conducted, the provider is removed from any patient care
      duties and the provider’s privileges are placed in abeyance. Abeyance in the
      Air Force can last up to 60 days. If the investigation is not completed within
      the W-day period of abeyance, the provider’s privileges are automatically
      suspended for up to 6 months. The provider’s case is referred to an MTF

       ?.n the Navy, the Corps include the Dental, Medical,   Medical Service, and Nurse Corps.



                                                  50
            Appendix E. Adverse Privileging Action Policies and Procedures


investigating committee or credentials committee for completion of the
investigation. The committee handling the case would make a recommendation
to the MTF commander to deny, limit, reinstate, or revoke the provider’s
privileges.

Whether the commander decides to initially take an adverse privileging action or
makes the decision as a result of the investigation, the provider is notified of the
pending action and of the right to a hearing. If the provider does not request a
hearing, the action is considered final for reporting purposes and the MTF sends
the case file through its major command to the Office of the Surgeon General
for approval and reporting to the NPDB. If the provider requests a hearing, it
is conducted at the MTF level and the results are provided to the MTF
commander. The provider is sent a copy of the hearing results and
recommendations and is allowed to submit a letter of exception and correction
to the MTF commander. The MTF commander then makes the decision to
deny, limit, reinstate, or revoke the privileges. The provider is notified of the
commander’s decision and, if the decision is to deny, limit, or revoke the
privileges, the provider can appeal to the Surgeon General. The adverse action
case file is sent to the major command, which is responsible for making sure the
file is complete. The major command then sends the file to the Office of the
Surgeon General.

If the action is not appealed, the case is deemed final for reporting purposes
and, if the action is a reportable action, a report is sent to the NPDB by the
Office of the Surgeon General. If the action is appealed, a consultant for the
Surgeon General’s office performs a clinical review of the case that focuses on
whether the action is supported by the evidence. The Surgeon General’s legal
counsel performs a legal review of the case for compliance with policy and due
process procedures. When both reviews are completed, the Surgeon General’s
Medical Practice Review Board reviews the case and makes a recommendation
to the Surgeon General to uphold the MTF commander’s final decision, grant
the appeal in part, or grant the appeal in total. The Surgeon General, after
consulting with legal and medical staff, either concurs or nonconcurs with the
recommendation. If the final decision is to take an adverse privileging action,
the case is deemed final and a report is sent to the NPDB.

Although reportable according to NPDB guidelines, suspensions are not
reported by the Air Force. The Air Force considers suspensions temporary
actions. The Air Force policy is to report denials, limitations, reinstatements,
or revocations of provider privileges. The exception is when a provider
separates while privileges are suspended. In that case, the Air Force submits a
report to the NPDB, as appropriate.




                                     51
Appendix F. Proposed Definitions of Key Terms
for Future DOD Policy

   The following are proposed definitions for consideration in publishing future
   DOD policy regarding NPDB reporting. These definitions are based on DOD
   policies, Military Department policies, and NPDB guidelines.

   Abeyance:     The temporary assignment of a provider from clinical duties to
   nonclinical duties while an internal or external peer review or quality assurance
   investigation is conducted. Abeyances cannot exceed 30 days. Abeyance is not
   considered an adverse privileging action.

   Adverse Privileging Action: The denial, reduction, restriction, revocation, or
   suspension of clinical privileges based on misconduct, professional impairment,
   or lack of professional competence. The termination of professional staff
   appointment based upon conduct incompatible with continued professional staff
   membership may also result in an adverse privileging action.

   Clinical Privileging: The process whereby healthcare entities grant providers
   permission and responsibility to provide specified or delineated healthcare
   within the scope of his or her certification, license, or registration. Clinical
   privileges define the scope and limits of practice for individual providers and
   are based on the capability of the healthcare facility; the provider’s current
   competence, health status, judgment, licensure, and relevant training and
   experience; and peer and department head recommendations.

   Credentials:   The documents that constitute evidence of certification,
   education, experience, expertise, health status, licensure, and training of a
   healthcare practitioner.

   Denial of Privileges: Refusal to grant requested privileges to a provider. This
   could occur at initial application of privileges or when renewal of privileges is
   requested. Denial of privileges because of professional incompetence or
   misconduct is reportable to the NPDB.

   Healthcare Practitioner:     Any healthcare professional required to possess a
   professional license or other authorization. These include all healthcare
   providers, plus practical nurses, registered nurses, and any other person
   required to possess a license or other authorization as may be designated by the
   ASD(HA).

   Healthcare    Provider: Healthcare professionals, whether military (active or
   Reserve) or civilian (civil service or under contractual arrangement) granted
   privileges to diagnose, initiate, alter, or terminate healthcare treatment
   regimens. Privileges are granted within the scope of the provider’s
   certification, license, or registration. Providers include physicians, dentists,
   nurse anesthetists, nurse midwives, nurse practitioners, audiologists, clinical
   dietitians, clinical pharmacists, clinical psychologists, occupational therapists,
   optometrists, physical therapists, physician assistants, podiatrists, social
   workers, speech pathologists, and other persons providing direct patient care as
   may be designated by the ASD(HA).

                                       52
     Appendix F. Proposed Definitions of Key Terms for Future DOD Policy


License: A grant of permission by an official agency of a State., the District of
Columbia, a Commonwealth, terntory, or possession of the Umted States to
provide healthcare within the scope of practice for a discipline. To be
acceptable, the license must be:
        a. Current: Active, not revoked, suspended, or lapsed in registration.

        b. Valid: The issuing authority accepts, investigates, and acts upon
assurance information, such as practitioner professional performance, conduct,
and ethics of practice, regardless of the practitioner’s military status or
residency.

         c. Unrestricted: Not subject to limitations on the scope of practice
ordinarily granted all other applicants for similar specialty in the granting
jurisdiction.

Limitation of Privileges: Limitation of privileges is not a valid adverse
privileging action per the NPDB guidelines. See entries for reduction and
restriction of privileges, which are reportable adverse privileging actions.

Malpractice Payment: Money paid as a result of a settlement or judgment of a
written complaint or claim demanding payment based on a licensed healthcare
practitioner’s provision of or failure to provide healthcare services and may
include, but is not limited to, the filing of a cause of action, based on the law of
tort, brought in any State or Federal court or other adjudicative body.

NPDB: The database designated by the DHHS to receive and provide data on
malpractice payments made on behalf of healthcare practitioners and data on
adverse privileging actions against healthcare providers.

QPRAC: Software provided by the NPDB that allows eligible healthcare
entities to electronically query and report on healthcare practitioners.

Reduction in Privileges: The permanent removal of a portion of a provider’s
clinical privileges. The reduction of privileges may be based on substandard
performance, misconduct, physical impairment, or other factors limiting a
provider’s capability. Reduction in privileges is reportable to the NPDB.

Reinstatement of Privileges: A revision to an adverse privileging action taken
that restores all or a portion of the provider’s clinical privileges. Reinstatement
of privileges is reportable to the IWDB.

Restriction of Privileges: A temporary or permanent limit placed on all or a
portion of the provider’s clinical privileges so the provider is required to obtain
concurrence before providing all or some specified healthcare procedures within
the scope of his or her certification, license, or registration. The restriction
may require some type of supervision. Restriction of privileges is reportable to
the NPDB.

Revocation of Privileges: The permanent removal of all clinical privileges of a
healthcare provider. In most cases, such action should be followed by action to
terminate the provider’s DOD service. Revocation of privileges is reportable to
the NPDB.


                                    53
Appendix F. Proposed Def’iiitions of Key Terms for Future DOD Policy


      Significantly Involved Practitioner: A practitioner who, based on medical
      record entries, actively delivered care in either primary or consultative role
      during the episode(s) of care that gave rise to the malpractice allegation,
      regardless of the standard of care determination.

      Standard of Care: Generally accepted or correctly considered actions of a
      provider or practitioner taken in order to arrive at a diagnosis or implement
      treatment of a given disease, disorder, or patient problem.

      Summary Suspension (or Summary Action of Suspension) of Privileges:
      The temporary removal of all or part of a provider’s privileges, taken prior to
      the completion of due process procedures, based on peer assessment or
      command decision that action is needed to protect patients or the integrity of the
      command resulting from cases involving possible incompetence, negbgence, or
      unprofessional conduct. A summary suspension could continue until due
      process procedures are completed. Summary suspension of privileges within
      DOD are not reportable to the NPDB, unless the final action is reportable.

      Suspension of Privileges: The temporary removal of all or part of a provider’s
      privileges resulting from incompetence, negligence, or unprofessional conduct
      after due process procedures are completed. Suspension of privileges is
      reportable to the NPDB.




                                         54
Appendix G. Comparison of Defense
Practitioner Data Bank and National Practitioner
Data Bank Records

    The following two figures show the number and percent of records from the
    data sources used for the samples. Figure G-l identifies the malpractice
    payment sources. Figure G-2 identifies the sources for the adverse privileging
    actions. All malpractice payments and adverse privileging actions included in
    the NPDB should have been included in the DPDB.




                                            Total for Military Departments   /




        q Malpractice      Records in Both the DPDB and NPDB
        pj;;
        izl Malpractice
        g:::$.             Records in the DPDB Only

        0 Malpractice      Records in the NPDB Only

    Figure G-l.   Comparison   of Malpractice     Payment Record Sources




                                       55
Appendix G; Comparison              of Defense Practitioner     Data Bank
and National Practitioner          Data Bank Records




               q          Adverse Privileging    Action Records in Both the DPDB and NPDB

               q          Adverse Privileging    .4ction Records in the DPDB Only

               0          Adlrerse Privileging   Action Records in the NPDB Only

      Figure       G-2.     Comparison     of Adverse   Privileging   Action Record   Sources




                                                   56
Appendix H. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department   of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Auditor General, Department of the Navy
Superintendent, Naval Post Graduate School


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                            57
Appendix H. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Department of Health and Human Services
General Accounting Office
   National Security and International AfFairs Division,
      Technical Information Center
   Health., Education and Human Services

Chairman and ranking minority member of each of the following congressional   committees
and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental mairs
   Senate Special Committee on the Year 2000 Technology Problem
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                             58
Part III - Management   Comments
Assistant Secretary of Defense
(Health Affairs) Comments

                                             THE ASSISTANT     SECRETARY      OF DEFENSE




    **.l.v*   .IC.,.S
                                                                                                 1IJJr   I988


                        MEMORANDUM         FOR DIRECTOR, READJNESS AND LOGJSTJCS SUPPORT
                                               DWCTORATE

                        SUBJECT:     Evaluation Report on DUD Implementation of the National Practitioner Data
                                     Bank (NPDB) Guidelines (Project No. TLHW)



                                1 am submitting this nply in response to your draft evahtation teport on the DoD
                        Jtnplementation of the NationJ Practitioner Data Bank Guidelines. The ofticc of the
                        Assistant Secretary of Defense (He&h Affairs), and the Executive Director, TRICARJZ
                        Management Activity thank your staff for their comprehensive review of the DoD
                        systrms for identifying. processing, wd mporting providers to the NPDB who are
                        assceiatad with maJpractice payments or subjected to adverse privileging actions. The
                        Health Affairs tcsponr has been discussed with the Army, Navy and Air Force Surgconr
                        General off&.% the Service Judge Advoute General offtces, Ute Armed Foraa Institute
                        of Pathology (AFIP) and the DOD Gneral Counsel at the DoD Risk Management
                        Commirme Mwcing.

                                I appreciate your exhaustive effoa on behalf of the Miliury Health System.
                        Your staff made some excellent observations and offered many practical suggestions for
                        cHecting process improvement. DoD concun with all but IWO of the 1G
                        rceommendations. Our rationale for non~oncuncna with the reeommenddonc to: I)
                        report all rnalprae~tce payments, whether standard of care war met or not. and 2) submit
                        the report to the NPDB within 30 days following written notiftcation of a malpractice
                        payment. is fully explained on pages Z-4 of the attached document.

                                My POC for questions related IO this document are LtCol Jim Williamson or COL
                        Christine Miller in the TRICARE Management Activity. They can be reachal at (703)
                        681-3629 or email (Jim.Williunron~osd.tmlmil)     Wm.




                                                                  60
                      Assistant Secretary of Defense (Health Affairs) Comments




    DoD lMPL.EMENTATION           OF THE NATIONAL PRACTITIONER                DATA BANK
                                       GUIDELINES

                             DoD(HAyRviA      Response to DOD IG




General Comments

       The Assistant Secretary of Defense for Health ABaits and the Executive Director of the
TRICARE Management Activity wish to thank the DoD IG for their comprehensive review of
DoD and Setice implementation of the National Practitioner Dara Bank guidelines and their
ruomrnendations for process improvements for NPDB reporting.

       The DoD response to the IG was discussed with the Army. Navy and Air Force Surgeons
General offices, Service Judge Advocate Genetal offices, AFIP and DoD General Counsel at the
DoD Risk Management Commitrcc Meeting.

   Is; FIndiQps related to DOD !&gw


   DoD mponing of malpracttce payments to the NPDB nccdr improvement. Of the I24
   malpractice payment records reviewed 70% had not been reported the NPDB. In the
   Memotandum of Understanding (MOW between DoD and the Dcpartrnen~ of He&h and
   Human Services @HHS), the ASD(HA) agreed to report a11malpractice payments, even
   when the standard of care was met. However, when DoD implementing policy was issued,
   reporting malpractice payments was rquircd only when the standard of care was no1 met and
   the incident was not the result of a system error.

   Those rcpor~ made to the NPDB had not tx.en submit:d in a timely manner. The timeliness
   problem rc~lted from a lack of dcfmitive policy on time frarncs for -porting and weakness
   in the repsxting pr0cc.s.



   DOD IC Recommendations        for the ASDtHA1   and Comments     from ASD(HA):

(A.1.a.) Enter into M MOW with the Assistant Attorney General,        Civil Division,
Department ol Justice to:

       (A.lr.(l) Require tbe US. Attorneys to provide malprpctJce payment information
within 30 days d prymeot or denial.

        We concur with this recommendation. DoD(HA) will seek to enter into an MOU with
the Assistant Attorney General, Civil Division, DcpMmcnt of Justice (DOJ). The MOU will
specify what rypc of malpractice information the Services rquirc in order to efftcienlly process
paid malpractice claims.




                                                 61
Assistant Secretary of Defense (Health Affairs) Comments




                          l   Case nune and number. patient name and so&J security numkr
                          l   Date of incident
                          .   Outcoms (claim paid or denied)
                          l   Payment date, amount, and rusoo for payment
                          l   Copies of any medical reviews done in support of tk toalprrticc payment.
                          l   Name of provider(s) cm whose behalf payment was made and whether tk
                              Department of Justice medical reviews indicated that tk provider(s) breackd
                              tk swdard of ure.

                                              of
           The departmentof legal medicine the AFP will receive a monthly rcpo-rtof malpractice
           claims cenified from the Judgment Fund for the three Defense rpnciu (.see attachment 1) The
           information will be provided to the Service risk managers monthly.

                  (A.142)    Inelude nn agreement for the Department of Justlcc to provide a
           quarterly (Or more frequent) moIlcibti~    dwtstaoding   claims from the preview
           qumter.

                  We coocur with this tuommendation.     The MOU with the DOJ will include a
           tequircment for DOJ to send monthly tepotts on new uses that are out-ding    claims filed.
           Reports will k forwuded to: the Service Judge Advoutc General SLlff; the Armed For-
           Jnstimte of Parhology (AFJP) legal medrcine department; the Service Surgeons Gencnl Offtcu
           (risk managers); and the risk m~agement committee. Caru pending litigation will not be
           included in tk report

           (A.1.b.) Rev&e rurnnt     policy to:



                  (A.l.t~(l) Require the Mililary Depnr(moots to repoti all malpractice payments
           whether standard d rare was met or not, exceptfor thae casesdue to drcumtances
           outside tbe amti   duty pn&iooer,      such PI druga misbbekd by the supplier. equipment
           or porv failure, or accidentsunrelated to patient caa

                   We Non-Concur with this recommendation. The DoD implementation polxy on NPDB
           rqorting sod tk decision by the ASD(HA) to amend the provisions of the MOU ktween
           DoD(HA) and tk DHHS, was dok in an effort to level tk playing field bctwoen DoD
           healtbcarepractitionersmd practitioners  in the civilian community. It is important lo
           understand thy despite tk philosophical intent of the NPDB. it is universally viewed by
           k&hcare   praclitionen as a dilo base for “‘bad practitioners” and an enthy to k avoided.

                    The civilian community currently employs several methods to protect healthcare
           practitioners from king repotted to fhe WDB. Ibe most common is the use of a “corporate
           shield”. Under this concept, the practitioner’s name is deleted from the maJptactice claim and
           tk claim is filed against the corpomtion employing the practitioner (e.g., Kai.ccr). Even if P
           ttudprrutice payment is made on behllf Kaiser, since a corporation cannot k reported to the
           NPDB, no report is f&d      Practitioners who are not employed by g corporation have the ability




                                                          62
                         Assistant Secretary of Defense (Health Affairs) Comments




to hire an attorney to represent their interests in a malpractice claim In aoma instances inourance
companiu will make malpractice payments directly IO the provider and have lhheprovider pay
the claimant. There is no NPDB reporting requirement if a practitioner providea rrimbunemcnt
directly to tJu claimant Although chc Health Resources and Se&ice0 Administration is trying to
eliminate corporate shield and feels close to doing so, Health Affairs believes the climinalion of
corporate shield should be rcomplished first before allowing reporting of all malpractice
payments on DoD providers.

         Under the provisions of the Gonzales Act and FederaJ Tort Claims Act. a military
healthcare pmctilioner cannel be sued directly for malpractice. All claims must be filed against
the U.S. Government.     While this could be viewed u a form of corporate shield, DoD(HA)
policy does provide for the reponing of malpractice payments if the standard of care (SOC) was
not met. or if the cause of the untoward incident is attributable to a systems problem Vs a
practitioner problem. lhis dettrminauon is ma& by the Service Surgeon General only after a
(horough pcu review of U-ICcast.

        In or&r 10 faciliLvc NPDB reporting IAW DoD policy, DoD has implemented a policy
whereby all paid case_sdetermined to meet Ihc SOC or attribulable 10 a systems problem will be
peer reviewed by a external civilian agency. Beginning I June 1998. and nzuoactivc to I
January 1998. all ‘standard of -     (SOC) met” and “rys~ems’ problem determinations on cases
for which a payment was made will be sent to the NtionaJ Quality Monitoring Contractor
(KePRO) for review. Tbc Services will send a copy of these cases to KePRO after Ihe Surgeons
General Office risk manager is notified of a payment and a SOC me( or system problem
de.terminaLion has been made. KePRO shall complete its review within 30 days of receipt of the
c=.    KcPRO will fonvard their purr review report fo the surgeon general for use as addilional
information in making his final determination. A report will also be forwarded to AFIP who
will monitor the results of this process for the TRJCARE Management Activity. (arlachmen: 1)
The Services will also provide a repon to AFIP a~ rba quarterly Risk Management Committee
meeting for tracking and twzonciliarion purposes.

         For DoD(HA) policy 10 mandate Ihe reponing of all malpractice payments LOLhc NPDB
would k a dcvasrating blow 10 the morale of its practitioners. A large number of paid
malpractice claims are xuled for the convenience of tic Government and no( on the basis of the
mcriu of theclaim. Reasons for adminisvativt settlements might include: lost medical records;
bias on the pars of the judge in the jurisdiction; Ihc aggressiveness of Ihe plaintiffs law tirrn; the
tympathy.factor of Be plainlifT and the quaJity of the government witnesses. DoD practitioners
have no say in whether or not a claim is settled. DoD(HA) is aware thol DHHS is trying to
legislate NPDB reform; however, such action is highly unlikely to be successful. If. and when,
that comes to fruition. WC will review our current position to ensure we are in compliance with
the law.




                                                   63
Assistant Secretary of Defense (Health Affairs) Comments




                    (.4.l.b.(2) Requlrc that Ndo~~sl Practittoner hta Rank qorb        be ml   within W
          c8kadar      dry3 of dpt    d writtm tsoU&ation of nvlpractlce poymmt

                  We nonumcur with this tecommendstion. lbe Services will modify their current
          processes. LF necessary, in orda to send I copy of UK csse documents IO KcPRO after 90 days of
          rarriving complete ttotifiution of s melpractice psyment. KePRO turn aouod time to the
          Surgeons gencnl offku is 30 days. NPDB mpottr will be tiled 120 deys efta the ServiceS risk
          nwtaga toceives compkte notification that s pryment wss maie. (Compkte notification
          meaning al1 the nocusary infotmetiot~ on the csre from the JAG or DOJ (sea pas A. I.&( I).
          Tbe 120 days is tequiral to allow dquate time to collect II copy of the patent record md other
          neousarydocutne nution, obmin input fmm involved provider(s), perform intemel(3 kvels) sod
          eslcmsl pea tcvicw of the use. md mske the SCC detaminstion.



                 (A.l.b.(3) Dlroet the Surgeons Cenenl to provide, ot kost onnuolfy, qrvlity
          nmnogamxat lnfonnatioo oucllning the nomba of mplproetkc poymmy Use number of
          reports submitted so tbo NPDB, Umelinta of repor& my bockiq, and any problems with
          NPDB report&g.

                  We concur with this recommendation. Services have developed mttics for tracking: the
          number of malpractice payments; the number    ofreportssubmitted IO the NPDB; the timelincs
          of the reports; and any hacklog and/or problems wi& NPDB reporting. The DOD ILsk
          Management Committee will be responsible for moniwring the metrics each quarter.

                  (Air)    Review the infotmeUw provided hy the Surpnw   Casaal ~rding                 NPDB
          reporting lad tic correetivc l&on to resolve soy reporting probkme nod provide
          rrsLt&la    in lRmfnaUng any bocklog.

                We concur with this rsannmmdation.       Review will be done u the quatierly Risk
          Manrgcmurt Committee meeting.

                  (&Id)     Provide coverage of NPDB repoding u pert of its mamgraaent control
          P*lW=

                 We concur with this raommendation. h’PDB rcponing will became pat? of the
          management control program. The quarterly Risk Management Committee meeting will be the
          primary oversight body.



          C   JCPindine~&jg&ltotbc~ofAd



                  1. Although the Milituy Dep-ntr        wete repotting physicians rad dentists. the
                  specific adverse privileging rtions reportal to the Nstionsl Ptxztitinna Data Burk
                  (JVPDB) vaied widely. The vuistions in toporting occttrtul bastta DOD sod the




                                                       64
                           Assistant Secretary of Defense (Health Affairs) Comments




         Military Department policies inconsisccntly dcfmed the various types of adverse
         pri~ikghg  xti0~   and which SCtiOIU 10 p01-L




         2.   The Miliury Departments did not report the actions taken in a timely manner.



D.   ~tions                        formm
(B) Recommead that the ASD(FL4):

(B.1) Revise Policy lo:

        (B.lr  ) Cle&y  d&e all terms related to adverse privileging actIons. Al a
minimum the poUcy should delete any refer-       to limitation, and clcvrly define abeyance.
denial, reduction, r&shtement,  restrtction, revocation and suspmsion.

       We concur with this mcommendstion. DoD(HA) will direct the Risk Management
Commitrse to review the “Proposed Definition of Key Terms for Future DoD Policy” outlined in
the IG repon and come to a consensus on standardizing key tenru for describing adverse
privileging actions yroll the Services. Services will modify their r?spfZtiVC policies
accordingly.



        (B.1.b) Require the Surgeons General to report alI associated adverse privileging
actions taken when the final aftlon results in an adverse action, consistent with hTDB
reporting.

       We concur wilh this recommendation. Ihe DOD Risk Managerneot Cotnmittec will
Mooitor complimce with the IG mcomrnendarion.


       (B.1.c) Report dverse privileging actions taken against providers with alcohol-
&ted    impairments who & not se&refer into a rehabiiitatioo program, or those who self-
refer bot do not complete the rehabilitation program.

      We concur with this recotnrncnduion. Services not currently following this
mcornmendation will modify their policies accordingly.



        (s.1.d) Require reporting within 30 calendar days of the date of Surgeon General
approval of the adverse priviieging action.

         We concur with this mcomrnendation.    Since the Surgeons General approval of the
dverse  privileging vtion occurs only after the practitioner involved has exhausted his/her “due
process” rights and the action is deemed final, the rcquiremenr IO report within 30 days is




                                                   65
Assistant Secretary of Defense (Health Affairs) Comments




          rcaaonable. DoD(HA) will direct tl~ Surgeons Gtneral to amply    with   theTOrecommendation
          and modify tbcir policy ucordingly.



                 (B.1.e) Mrect the Surgeons General lo pmvidr, at kast lnnunlly, management
          hformslion outlining ihe number of adverse privikglng actions taken, lbe musher
          reported to the NPDB. the helhcsa   of the reports any backlog aad any pmbltu~ witb
          NPDB rtpo~I@.

                  We concur with thin rccomtnendatiott. Scrviiu have developed metrica for tracking: the
          numbor of adveraa rtionr taken; the number of topotts submitted to the NPDB; the timeliness of
          Ihr rcpot~: and any backlog and/or problems with NPDB repotting. The DOD Risk
          Management Committoe will be msponaible for monitoring these mcbicc erch quarter.

          (R3) Review the infonnatioa provided by lbe Swgeor~~ General regarding NPDR
          reporting and take mrrcctive acth lo rrsolve any reporting problems and provide
          uckrpnce in eliminating any backlog.

                 WC concur with thcac cscommendations. The DoD Risk Management Committu will
          provide a forum for monitoring the SUNS of the Services NPDB reporting of advcrsc privileging
          actions and to addrcrs problems with the reporting ptocess. This information will be COIICCLXI
          by the Surgeons General’s offices and will be reported quarterly at the DoD Risk Management
          Meeting.



          D. Completetxs     of Automated FIltx



          1. l%e Dcfonrc Rxtitiortcr Data Bank (DPDB) did not conuin all records that bad teen
          reportul to the Natiooal Practitioner Data Bank (NPDB). A merged data base sample of repot%
          reviewed for this survey dcmonsuated thar eight percent of the malpractice payments and
          41 percent of the adverse privileging actions Y/WCfound in rhe NPDB but no1 in the DPDB.

          2. When mports did appur in born data banks, &cctivc    and final action dates were incorrect
          for 50 pxent of a sample of records nvicwcd.

          3. The variation in data base records is ettriburablc to ioadquatc management controls which
          do not ensure that Military Departments report complete and PCCUN~ information to the DPDB
          d the NPDB.

          ]G Rtcommenda~r            the ASDfIL4)   and Comments from ASD(HA1;

          (C) No rucorntneodatfons were tsnde to (be ASD(HA).       Recornmen&tiona     were made to
          lba Surgeons ceueral to:




                                                     66
                      Assistant Secretary of’ Defense (Health Affairs) Comments




   (Cl ) Recandle the DPDB and the NPDB databases
                                                by submitting        to the DPDB all
recordscurrently ody in the NPDB.

    (C.2 ) Impkment pracedura so that reports are submitted lo the DPDB at the same
Ume as data is submItted Lo the NPDB until the Centralized Credential Quality Assurance
Syshoa, version 20 k fully Implemented.


   ASD(HA) coryuls with &se recommendation. We recommend thy the DOD Risk
Management Committee overset the implcmentarion of the IG recommendations.




                                             67
Department          of the Army Comments




       DASG-HSZ



                                                                                           Spkgd

       FOR Director,      Readiness     and Logistics      Support
                                                                                           m-y or Ihe Amy
                                                                                           SW-W Affairs)

               400 Army Navy Drive,         Arlington,     VA 22202

       SUBJECT: Department   of Defense Inspector              General    (WDIG) Draft
       Report on the DOD Implementation   of the              National    Practitioner
       Data Bank Guidelines,   6 Apr 98


       1.    Reference     memorandum, SAAG-PMO-L (36-2b).         dated 20 April
       1996, Subject:         Evaluation    Report on DOD Implementation       of the
       National     Practitioner      Data  Bank Guidelines    (Project   No. 7LH-
       0009).     The following       is the Army’s positron      with respect   to the
       tindlngs,     recommendations,       and  corrective  actions    of the subject
       report.

       2.     We concur    with all    findings   and recommendations        except
       A.l.b(l),      which recommends a revision        of the National
       Practitioner       Data Bank (NPCB) rcportlng        policy    to require    reports
       of all malpractice          payments whether the standard        of care was met
       or not:      and, A.l.b(Z),     which recommends that reports          be sent to
       the NPDB within        30 calendar     days of receipt      of written
       notification       of claim payment.

       3.    The premise       underlying      recommendation     A.l.b.(l)      is that the
       reason     why this     agency has reported         so few prcviders        to the NPDB
       since    its   inception       is because    of the Service-imposed          requi.rement
       that a standard         of care deviation        determination       be made prior     to
       the issuance        of any report.         Other administrative        breakdowns,
       however,      are thought        to be the primary     cause of the low report
       rate.      Because     this    recommendation     appears    based on a finding        of
       causative      effect,      the validity     of which is questionable,           it
       should     not be adopted         by this   agency.

       4.    Regarding     recommendation     A.l.b.(2),      a 30-day   standard   for
       submission     of reports     to the NPDB is inherently         unworkable,      given
       the necessity       of obtaining    documents      from various    sources   and of
       notrfyinq     the provider      for coanent.       By way of example,      AR 40-69,
       Interim    Change No. IO3 allows        seven     (7) days for the Medical
       Treatment     Facility    to submit a completed         DD Form 2526 to the US
       Army Medical      Command (KEDCGM) upon notification            of payment;




                                                 68
                                          Department   of the Army Comments




.                                                                         I




    this can be extended, upon request, for up to twenty-one (21)
    days to allow for completion of the peer review process.
    Further, the notified provider is given thirty days to respond to
    any potential NPDB report.  This agency's recommendation would be
    a 90- or 120-day standard.

    5.  The current reporting policy demonstrably works when both
    leadership and resources are focused on making it work.
    USAMEDCCM now has fifty-four (54) confirmed NPDB reports. Our
    current process now also supports the dual reporting requirement
    to the NPDB and the DPDB, and we will continue to collaborate
    with agents for the DPDB to align the data as necessary.

    6. The Office  of the Judge Advocate General concurred with thrs
    response. For additional information our point of contact is
    LTC Cannon, Provider Actions Staff Officer, at DSN 471-6195 or
    Commercial   (210)   221-6195.

    FOR THE SURGEON GENERAL:




                                      Deputy Surgeon General




                                     69
               Department        of the Navy Comments
Final Report
 Reference




                     MEMORANDUM FOR THE DEPARTMENT OF DEFENSE INSPECIDR GENERAL

                     SUBJECT:   Department of Defense Inapcctor General Draft Report on
                                DOD Implementation of the National Practitioner
                                Data Bank Guideline8

                          Navy has reviewed Attachment 1 and connnentsare provided ae
                     Attachment 2.

                          Department of Navy point of contact is CDR Frank Alamia.
                     Bureau of Medicine and Surgery (MED-32RM), at (202) 762-3061.



                                                     K?LREN   s.   WZATH
                                                      Principal Deputy

                     Atrachments:
Attachment           1. Draft Report
Deleted              2. Navy Comments




                                                      70
                                                         Department             of the Navy Comments




                                                                                                       Final Report
                                                                                                         Reference




 Navy     Comment8     ore tha    Bvvrlultion Import         of     DOD Impl-station           of
              tha National        Practitlonar  Data         Bsnk     Quidmlinos


     9inding    A.,    p.g.      51   DOD Reporting     of        Malpractice      P8ymurt8r
DOD reporting of Malpractice payment6 to the NPDB needa
improvement. Of the 124 malpractice   payment records reviewed,
87 (70 percent) had not been reported to the NPDB. In addition,
those reported had not been eubmitted in a timely manner. The
limited reporting occurred because DoD policy require8 report
for malpractice payments only when the Surgeon General
determines a specific practitioner deviated from an accepted
etandard of care. The timeliness problem reeulted from a lack
of definitive policy on time frames for reporting a weaknesses
in the reporting process. Aa a reault, the NPDB was queried,
healthcare entities did not have all relevant information
available for making credentialing and privileging decisions.



Ret-•adatioam          for Corrective Action:

    A.l.a., page 16: Enter into a memorandum of understanding                                          Page 15
with the Assistant Attorney General, Civil DiviBron, Department
of Justice to:

         (1) Require the U.S. Attorneys to provide malpractice
information within 30 days of payment or denial and include, at
a minimum: patient name, case number, date of incident;
outcome; payment or denial date and amount (if any); basis for
the dispoeition; names of practitioners associated with the
incident, and whether those practitioners breached standard of
care based on Judge Advocate General medical reviews; and,
copies of any medical reviews done in support of the malpractice
payment.

    coImuntr  w.       Reconrmend adding patients social security
number for better identification.

    A.1.b..     pmg.    16:      Revise   current     policy to:

          (1) Require the Military Departments to report all
malpractice payment8 whether standard of care wae met
or not, except for thooe cases due to circumstances   outside   the
control of any practitioner, ouch as druge mielabeled    by the
supplier,   eguipment or power failure, or accidents unrelated   to
patient    care.




                                               71
               Department     of the Navy Comments




Final Report
  Reference




                                    C-t1      pp Not CQPOIL.    The NPDB does not require
                            reporting of all paymtncr made in rcaponst to malpractice
                            claims. Only paymenta made *on behalf' of a provider must be
                            reported. In DOD, Federal Torte Claim Act (FTCAI litigation is
                            always framed as against the Government. The involved provider
                            may have knowledge of the action, but unlike crvilian providers,
                            haa no control over the decision by fhe Office of the Judge
                            Advocate   General and the Jueticc Department to lcttle or
                            litigate the claim. FTCA claims are handled according to what
                            ia in the beet interest of the U.S. Government, not the
                            individual provider. Claims art settled for a variety of
                            rtatom,    such as the txptnst   of litigation, even in caat# where
                            the standard of care haa been met.  In the private lector, many
                            otttltments are made in the name of the corporate healthcart
                            entity vice the individual provider, thus, avoiding an otherwise
                            reportable NPDB action. In the Navy. the Surgeon General
                            carefully tcrtens cattt where a paymtnt has bttn made, and
                            reports the involved provider where the standard of care was not
                            mtt. It is in those casts that the payment is deemed to be "on
                            behalf’  of the provider vice the U.S. Government.   This is a
                            fair and reasonable process   char complies with NPDB requirements
                            and protects providers.    Implementation of the proposed
                            rtcommendatlon vould place military providers on an unfair and
                            unequal playing f itld, with potential adverse impacts on morale
                            and readiness.

 Page 18                           A.1.c..  p.g. 171 Review the information provided by the
                            Surgeon General regarding NBDB reporting and take corrective
                            action    to resolve awj reporting problem and provrdt assistance
                            in tlimlnating any backlog.

                                coamluat:    Concur.

 Page 19                         A.Z.a., pagt 17: Provide malpractice information to the
                            offices of the Surgeons General within 30 days of the payment or
                            denial.   At a minimum, the report should include: patient name,
                            case number, date of incident; outcome; payment or denial date
                            and amount (if any): basla for disposition; names of
                            practitioners associated with the incident, and whether thoee
                            practitioners  breached the standard of cart bared on Judge
                            Advocate General medical reviewa: and copies of any medical
                            reviews done in support of the malpractice payment.

                                c-t1     vConcur.            Office of Judge Advocate
                            General (OJAG)(Code 35) will provide malpractice information to
                            the office of the Navy Surgeon General in a report to include
                            the item3 recomnendad by DoDIG.  However, information will be




                                                           72
                                         DeDartment of the Navv Comments




                                                                           Final Report
                                                                            Reference




                                                                           Revised
provided within 45 versus 30 days of Code 35 being notified of a
payment or final denial.                                                   Page 19

    A.2.b., p.g. 178 Provide at least quarterly reconciliation             Page 19
of outstanding claims from the previous quarter.

    c-t       Concur.    OJAG (Code 35) will provide quarterly
reports on open claims   to the Navy Surgeon General

    A.3.8., pago 17: Identify the rpecific information and                 Page 20
documents required from the Department of Justice and the
appropriate Military Department Judge Advocate General in order
to identify practitioners to report to the NPDB.  A minimum liat
is provided in Recommendations A.1 and A.2.



    A.3.b.. paga 17: Provide coverage of NPDB reporting as part            Page 20
of their management control programs. Appendix A provides
detail on the adequacy of managements' eelf-assesemente.



       Pinding B., Paga 18: DOD Reporting of Advmrsm Privileging           Page 2 1
Actionm :    Although the Military Departments were reporting
phyeicians and dentists, the specific adverse privileging
actions reported to NPDB varied widely. In addition, the
Military Departments did not report the action8    taken in a
timely    manner, although processing time was improving. The
variation in reporting occurred because DOD and Military
Department polices inconsistently define the various types of
adverse privileging actions and which actions to report. The
timeliness problem occurred because DOD lacked policy
establishing a time frame for reporting adverse privileging
actions and because the Office of the ASD(HA) did not provide
adequate oversight to ensure reporting was completed in a timely
manner. As a result, healthcare entities querying the NPDB did
not have all relevant information available when making
credentialing or privileging decisions.




                                   73
               Departmint     of the Navy Comments




Final Report
  Reference




                            Poe-ndttion          for Corroctivt   Action:

 Page 29                        B.1..     pa*.   a7:   We rccormnendthe ASDWAI       rcviac policy to:

                                     a. Clearly define  a11 terms related to adverse
                            privileging action.     At a minimum the policy should delete any
                            reference to limitation and clearly define abeyance, denial,
                            reduction, reinstatement,   raatriction, revocarion, and
                            suspension,  as proposed in Apptndix P.

                                  b.  Require the Surgeons General to report all associated
                            adverse privileging actions taken when the final action reoults
                            in an adverse action, consistent with NPDB reporting.

                                 c.  Require reporting adverse privileging actions against
                            providers with alcohol-related impairments who do not self-refer
                            into a rehabllltation program, or those who self-refer but do
                            not complete the rehabilltataon program.

                                d.    Require     reporting   within    30   calendar daya of the date of
                            Surgeon   C3ensral    approval    of the adverse privileging actxon.

                                a.  Direct the Surgeone Gtneral to provide, at least
                            annually, management information outlining the number reported
                            to NPDB, the timeliness of the reports, any backlog, and any
                            problems with NPDB reporting.



 Page 29                         P.2.. pagt 171 Review the informarion provided by the
                            Surgeone General regarding NPBD reporting and take corrective
                            actions to resolve any reporting problems and provide assistance
                            in elimination of any backlog.



 Page 3 1                       Tinding  C., page 181  Compltttnttt of DOD Automated ?ilttr
                            The DPDB did not contain all records that had been reported to
                            the NPDB.   From the merged database used for our aamplt, 88 of
                            the 1,150 (8 percent) malpractice payments and SO of the 220 (41
                            percent) adverse privileging accione were in the NPDB but not
                            the DPDB. In addition, when reports were in both data banks,
                            affective and final action darts were incorrect for 50 percent
                            of a sample of records reviewed. The variation in the records
                            reported to the databaets and the differences in ddta within the
                            records occurred became  managemtnt controla were not adequate
                            to ensure the Military Department8 reported complete and


                                                                    4




                                                                   74
                                                    Department of the Navy Comments




                                                                                      Final Report
                                                                                       Reference




accurate information to the DPDB and the NPDB. Ae a result,
AFIP   did
         not have a complete, accurate, automated database for
conducting analysis related to clinical and malpractice ioouee.



Recmdrtion           for     Corrective   ActLont

    c.1.. page 32: Reconcile the Defense Practitioner Data Bank                       Page 35
and National Practitioner Data Bank (NPDB) databases by sub-
mitting to the DPDB all recorde found only in the NPDB and
correcting inconsistencies in the data.



     C-1..   pg.      31. Implement procedures so that reports are                    Page 35
submitted    to    the DPDB at the same time as data is submitted to
the NPDB until the Centralized Credentials Quality Assurance
System Version 2.0 is fully implemented.

     c-t:          Concur.

     Additional Connuntnr

    Navy hae contracted with a private sector company to
eliminate its backlog of NPDB cases. All backlogged caaea have
been reviewed and final action on each case is expected to take
place by 30 July 1998. Management controls are already in
place.




                                              75
Air Force Surgeon General Comments


                                          DEPARTMENT    OF THE AIR FORCE
                                         WL*oa”AmTL”. “WITED .TATC‘ *IO ,O”CL




                                                                             05 JUN 1988

      MEMORANDIJh4               FOR     OFFlCE   OF THE     INSPECTOR       GE?4ERAL           DEPARTMEhT          OF
                                          DEFENSE

      FROM:        HQ USAF5G
                   1 IU Luke Avenue, Room 400
                   Rolling APB. DC        70332-7OSO

      SUBS               Response
                                KIEvrluuion Repon on DOD Implemntion                      of lhe National PncIilioner     DOU
                         Bank (NPDB)      Guidclinu   - Projccl No. 7LHMo9     (Your Drrfi      Rcpocc. 6 April 1998)

               Fiiding     A:    IL@ng       d Malpractirc   Paymenls

               w           t&D policy lacks dcfinitivr time framtc for trponing ICIthe NPDB




                          A.I. p                                               .’

                                    A.1 .b. Revinc cumnt poky lo.




               Nonconcur:        Reponmg of all nulprrctlcc paymew        is mappropri;ilc for three -ns:           1) 5he
      NPDB does not mudoLc this. 2) The miliq              &par?rreo~    am M)( private insurance coqanies.          and
      3) De&ion% on liiipuon           and payment are outside tk con11~1(or knowledge) of ok indiwduul provdcr

               The NPDB         reporting guidelincr clearly dim    thu borpiuls.    i-           unirrs     and reporting
      entities qor~      when pymnt       is ma& on behalf of J provider. The NPDB Guidebook. May 1996. page
      E-28 SLILCI“Employus          who insaw tiir    rmployar     nwst rrpor~ medical mulpnaie            paynrn~r rky    &
      for tk   kncfi~ of tkir     employc~~.~ Theu      hcultkarc entities mu!      make I dclcnninuion       on wkthec
      puymcnl WI) made on kh;llf          of tk bospitJ of u1 behalf of individual providers.




                                                                    76
                                                                Air Force Sureeon General Comments




                                                                                                            Final Report
                                                                                                              Reference




        All mrdpnctice claims and lawsuiu are fikd againu the U.S. Government and paJd on behalf of
the U.S. Govemrrmt. Litigation efforls tend lo focus on Ibe inuxcals of Ibe govarnmnl and not on the
individual providers. Deciuons on wbe0w.r to licigale or mule are often based on chc judgwncnt of a
ringk rrvicwer. and tbc expertise of kpl teprcscnta~ivcsmay vary considerably. The provider is nM
involved in the proerc of adjudication of Ihc claim.

        TIE Surgnon General of uch military deputmcnt ha lhe responsibility IO make Ihe
                                                                       of
discriminuing decisions about whclhu payment was mdc on behalf individrrnl providers. ‘The Air
Force Surgeon GencmJ. who reviews each paid mplpmctice claim. the standard of care reviews. and
individual provider’s mbuual. ulru this responsibility very seriously before nuking a final decision. The
Air Force has loUowed the Memorandum of UndcrsIanding with drc NPDB. and DoD Policy on rcporung
of huhhcivc providers for malpractice. We have consistendy identitiod significantly involved providers,
made standard of care dctcrrnina~ionsand ggyg mpor~edindividual providers IO the NPDB when it wa
deloti      that chc Air Force paid on their behalf. Whhin Ihc unique hamwork of IJX military. this is
lhe con-x1 appmach ro take in reponing nulprac?icc payments.

                                (2) Rquire NPDB reports be sent within 30 calendar days of rcccipt of
witfen norification of ma1pmctic.epaynmt.

       Nonconcur. Timline is 100 suingcot lo allow for quality of care review, provider notificanon of
involvement m the claim. and Surgeon General sppronl of reporting. Would recoined       120 days.

                 AZ. J&cAd    vocatc w            of the M iIGarY Dcpamnenc<-

                      a. Provide ms.lpracticcinformation IO the offices of the Surgeons General wuhm
3Odays of paymcnr or kniol. AI a minimum. the report should inch& Ibe:

                                  -Patient name. case number and date of incident

                                  - ouLcomc
                                  - Payment or denial dare and amount (II any)

                                  - the   basis for rhe disporioon

                                - the nanw of tba pmctitionu associated wilh the incident. and whether
fhose prpctitioners breached standard of care based on Departnwu of Justice Medical rewews; and

                                  - Copies of any rmdicpl reviews done in suppon of the malpmclice


                        b. Provide at least quarterly reconciliation of outrunding claims from IJK
previous qwer

        v   ‘.
                           Roconunend 45 days to repon final paymenu.                                       Revised
                                                                                                            Page 19
                 Al   Surecon’r

                      L Identify the specific information and documcnu required from tie
DepMmcnt of Justice and the lppmpriau Military Dcparlmcnt Judge Advocate General io order to
identify pnctiti- m rcporf to IJX NPDB.




                                                          77
Air Force Surgeon General                    Comments




                                                                                                                   3




                                       b. Pmvi&   covetap   of NPDB mporting as patl of their twugcmenf   contml




                  FIndIng B: DOD Reportingd Advtru PrMltging Actb~~

                  m         with both tindings atad recommttdations    proposed

                  FindIng    C: Cmtpk&ness        of DoD Automati      Fila.



                            Surpon’r     Gnenl    of UK Military Dcpwvncn~:

                                     (I) Reconcile the Dcfcnu Rvtitiotw Data Bank (DPDB) and ~JICNPDB
          daobrsu     by submitting 0 tJte DPDB AUrscordr found wly in I& NPDB and correcting the
          inconsistucies    in tbc data.




                                    (2) bnplcm~n~ prccedura so that mports are submitted to the DPDB II the WJX
          tune ~1 data is submitted to tbc NPDB until fhc Cenvllized Cr&ntmI> Qulity Auurwcc System
          Version 2.0 is fully YnplcnmtLd.



                  My point of CO~LW is &jor Paula Lewis; Chref. Risk Manrgemnt Opua~ionr. Air Force
          Medical Opctauonc Agency. I IO Luke AWIUC, Room *OS. Boiling AFB. DC 20332-7050. DSN 297-
          4140




                                                                      CHARLES H. ROADMAN II
                                                                      LieuLenallt Gncnl. USAF. MC
                                                                      SIlr8cOn   &Wd




                                                                78
Air Force Legal Services Agency Comments
                                                                                                         Final Report
                                                                                                          Reference



                               DEPARTMENT      OF THE AIR FORCE
                               YR FORCE LLoAL SEERvtCttsAGENCY(*FLsI)




    MEMORANDUM         FOR OFFICE OF THE DoD INSPECTOR             GENERAL
                           AT-TN: MS. BETSY BRLLJANT

    FROM:    AFLSAIJACI’
             1501 Wilson Blvd. Room 835
             Arlington VA 22209-2403

    SUBJBCT:     DoD IG Report - DoD Itnplernentatioo of the National Practitioner   Data Bank
                 (NPDB) Guidelines

          Thank you for the opponunity to comment on your draft of Project No. 7LHMx)9.      Our
    commenta are limited to the reporting requirements set out for the Judge Advocates General of
    the Military Depattmenu.  in section A.2.

           - Paragtaph A.2.r (page 17). The Air Force Tort Claims and litigation Division
    (-A/JAW            bas been providing the office of the Surgeon General (SG) with a monthly
    report on all closed (settled and denied) claims and litigation casea since December 1993. The
    mport includes the information set out in your draft section A.2.a with the exceptiott of (1)
    name(s) of practitioners associated with the incident. (2) whether those practitioners breached
    standard of ult based on medical legal reviews and (3) copies of any medical reviews done
    during evaluation of malpractice allegations. We begin compiling our monthly repott at the close
    of each calendar month. The report is not completed and forwarded IO the SG before 7-10 days
    into the next month. As a resulL claims that are closed early in the month are not report&d to the
    SG until mote than 30 days have elapsed. By extending this reporting deadline to 45 days. we         Revised
    can to condoue to use an effective system already in place and comply with your amended              Page 19
    recommended reporting rquirement.

           The name(s) of ptactitioners associated with tbe incider& and whether those pmctitionen
    breached standard of care baaed on Judge Advoutc General medical reviews, and copies of any
    medical reviews done during malpractice cvaJuation are aheady provided to the SG directly from
    the regional Medical Imw Consultant. WC will provide to the SG available information from
    subsequent medical nzviews that may have kn acquired during negotiations or litigation.

            JACT will also report finnl actions on CIYS in litigation within 45 days from the time we
    receive that information from the Assistant United States Attorneys, as WCcannot control the
    timeliness of reporting case closures by United States Attorneys’ Ofticcs.

          - Paragtaph A.2.b. (page 17). Outstanding claims information is already provided to the        Page 19
    SG on a monthly basis.




                                                     79
Department    of the Air Force Legal Services Agency Comments




                      While no1 diraw!   lowed the comics Judge Advocucr General. I must voice my non-
             ~UKIIIIWXZ with the DoD prop0sa.l u~du A. 1.b. (2) U)repon alI paid CUC( to the NPDB even il
             aadard of cam is met. Uackr DOD practice. providen arc MY lfiorded personal counul Lo
             defend thcii actions. Fur&r, unlike the civilian world. DoD pmvider~ unnot take dv~txgc      of
             rbc %xpora& sbicld”. Fixlly. tie uniqueness of military mcdicinc places providers in
             circumstancea whue the mission. i.e. ‘syuem”. forces incrusal risk of liability exposure. Thuc
             ivutr impvt case disposition. and, whhout x sepamk peer rkrcrmination of pncricc staOdards.
             providen’ pr&ssioaal cuea~ a0d mputations will be depcr&nt upon claims 0ff11          Or
             Assistant U&al States AUomeys with scparak crpreuntional      i0tucst.i. The puIPOSCOf rhe
             NPDB is baa yrved by zeponiDg only confimrcd mxlpnctifc.

                     Pkasc COOIXXthis offii if you need funha infomwion.       My point of canoct is Mr.
             Joseph A. Procrccino. Jr. who can be rached a~ 6969055.




                                                         DAWEii.     HASS. Colonel. U-SAF
                                                         Chief. fort Claims xnd Litigation Division
                                                         Air Force Algal Services Agency




                                                        80
Evaluation Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DOD, produced this report.

Shelton R. Young
Michael A. Joseph
Betsy Brilliant
H. David Barton
Lieutenant Colonel (S) Ronald E. Palmer, U.S. Air Force
Elizabeth A. Freitag
Sheela M. Javeri
Brian M. Taylor
W. Sterling Malcolm
Daniel S. Battitori
